<html>
<title> - ``THE FUTURE OF THE UNITED STATES FOREST SERVICE''</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]


 
          ``THE FUTURE OF THE UNITED STATES FOREST SERVICE''
=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 1, 2002

                               __________

                           Serial No. 107-110

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov








                           U.S. GOVERNMENT PRINTING OFFICE
79-342                            WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                         COMMITTEE ON RESOURCES


                    JAMES V. HANSEN, Utah, Chairman
,       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 1, 2002......................................     1

Statement of Members:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................     9
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     4
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................     5
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................    21
    Simpson, Michael K., a Representative in Congress from the 
      State of Idaho.............................................     8
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     6

Statement of Witnesses:
    Veneman, Hon. Ann, Secretary, U.S. Department of Agriculture.    10
        Prepared statement of....................................    14


OVERSIGHT HEARING ON ``THE FUTURE OF THE UNITED STATES FOREST SERVICE''

                              ----------                              


                         Wednesday, May 1, 2002

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to call, at 10:02 a.m., in room 
1334, Longworth House Office Building, Hon. James V. Hansen, 
(Chairman of the Committee), presiding.
    The Chairman. We are privileged this morning to have the 
Secretary of Agriculture, Ann Veneman, with us. She is 
accompanied by Under Secretary Rey and Chief of the Forest 
Service, Mr. Bosworth. We are grateful to have all of you with 
us this morning, and let me point out that this is a bad day 
for us, and I know a lot of members will feel bad about this 
because they wanted to talk to all three of you, and we must 
have four markups going on. Personally, I have one in Armed 
Services that is very important to me, and I know the other 
members do also. So expect a little in and out, and also let me 
just respectfully point out that there has been some 
frustration with the Department of Agriculture expressed by 
members of this Committee, and we don't mean to take it out on 
you today, but we appreciate you being with us and hope you can 
stand to be with us for the time that we have allotted to this.
    Let me give my opening statement, and then I understand 
that someone from the Democratic side will give theirs, and 
then if anyone else has an opening statement, we will be happy 
to hear from you, and members will be coming by periodically.

  STATEMENT OF THE HON. JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    The Chairman. The Forest Service manages about 8.5 percent 
of total land area in the United States, according to some 192 
million acres of land. These areas are managed by 9 regions, 
155 national forests and more than 600 ranger districts. 
National forest lands are found in 44 states and 739 counties. 
Out west we have millions of acres of public domain forests. To 
say that Forest Service affects millions of America is a gross 
understatement.
    National forest lands are home to a myriad of activities. 
Americans hunt and fish on national forests. Others quietly 
reflect in the solitude offered them by towering pines and 
sparkling brooks. Hikers and campers use developed trails and 
facilities for recreation. Cities and towns utilize resources 
from watersheds to provide drinking water to their residents. 
Indeed, national forests influence our economic, educational, 
commercial, personal and spiritual well-being.
    We are here to talk about the future of the Forest Service. 
It is fair to say that the Forest Service has changed 
considerably since it was established by Congress in 1905. We 
need to figure out where it is headed and then see if that is 
where we want it to be going, and that is our purpose today.
    I have been doing some interesting reading. It seems that 
the Forest Service is no longer the agency it used to be. In 
the beginning rangers were required to pass rigorous 
examination. Among other skills, they had to be able to saddle 
and pack a horse, build trails and cabins. They had to be able 
to run a compass line and find their way through the forest 
both in daylight and darkness. They had to know how to scale 
timber. They even had to cook a meal, and most importantly, be 
able to eat it afterwards. These skills had to be demonstrated 
before an applicant could be hired. And experience, not book 
education was sought by the Forest Service and they didn't just 
hire anyone. They hired the right person for the job. Thus a 
force on-the-ground experts was created. A force that knew the 
land and what it was best for.
    Gifford Pinchot, the first Chief of the Forest Service, 
wrote that the agency was ``generally recognized as the best 
Government organization of its day.'' This happened, he 
claimed, as a direct result of the agency's purpose and its 
foundation of recognition and responsibility. He outlined 
several of the reasons why the Forest Service worked so well. 
Managers were allowed to be innovative and were directly 
responsible for the land they managed. Those who knew what was 
best for the land were able to do it, not postponed 
indefinitely by bureaucracy and red tape. If any man failed to 
do his job, he was ``promptly taken out of it.'' Management 
policies were dynamic and subject to change if a better way was 
found.
    That description is kind of a far cry from today's Forest 
Service, and we realize that things change over the years, but 
under the previous Administration, the agency created mandates, 
such as the Roadless Rule, that applied to all lands equally 
regardless of their unique situations. Local managers were 
effectively prohibited from managing the forests. Regulations 
required assessment of assessments and made even small tasks 
difficult to achieve. I have heard this problem called 
``analysis paralysis.'' Today a 34-cent stamp can stop a timber 
sale. Some employees are no longer responsible for their 
actions, as we saw in the lynx hair debacle. Beetles and fires 
are destroying great stands of timber because of the inability 
of local managers to manage them. Experience and common sense 
has been replaced by book smarts. Indeed it looks as though the 
Forest Service in many cases has lost its way.
    I don't know if there is a specific occasion when this 
occurred. Perhaps the Forest Service has chosen to follow a 
sustained version rather than a sustainable version. The axiom 
that ``the greatest good for the greatest number in the long 
run'' appears to have been downtrodden by a new ideal that 
places preservation as the top priority and leaves local 
managers dangling without the tools to manage the national 
forests. Following this idea, the Forest Service has replaced 
management of timber, once thought as a commodity and a 
renewable resource, with recreation management. We fully 
realize that that happens and that those things are occurring, 
but we are concerned about the way it happens.
    It is important to realize, however, that none of us want 
all of the timber on our national forests to be logged. In 
fact, some of the most beautiful places I have been are in 
national forests. One of the first things I did as a 
Congressman was to sponsor the first and only bill that 
designated some national forests lands in the State of Utah as 
wilderness. That is the beauty of the multiple use concept 
coupled with a vision of sustainability. Uses can be balanced 
and forests can be healthy at the same time. Local economies 
can benefit; so can hikers. It is not an all-or-nothing 
situation like some groups would try to lead us to believe.
    If the Forest Service has lost its way, it is time to put 
it back on track while we still have that opportunity. It is 
going to take a lot of hard work to make this agency the best 
Government organization that it used to be, and I believe it is 
possible, and I believe the right people are in place to do it. 
Forests must once again be managed for multiple use access and 
sustainability. National Forest timber must once again become a 
commodity. Management tools must be restored to local managers. 
The people on the ground, not in Washington, should have the 
say of what happens in local forests. And like the first 
gentleman said, give them their heads and let them use them.
    With that said, I would also like to go on record that I 
have a good relationship with the Forest Service, and Chief 
Bosworth, who served as the Regional Forester in Ogden, Utah. I 
also have a close working relationship with Forest Supervisors 
and District Rangers, and I know that they have the best 
intentions for the Forest Service. I am pleased to have them in 
these leadership positions. Chief, I think you have got some 
awfully good people that work for you. Let's let them lead. We 
have worked together on a number of issues over the years, and 
I hope that this relationship will continue to be fruitful.
    Let me just point out that, no disrespect to anybody over 
the years, but access is a big deal, and people in America want 
access to their ground. I had a man come up to me and put his 
face right in mine the other day and he said, ``Read the 
Constitution, Mr. Chairman. The first words are We the 
people'', and we the people want to use the public grounds of 
America. And I am almost embarrassed to go to some places in my 
home State and my home district because people will jump all 
over me and say, ``How come we didn't have any input when that 
road was closed? How come we didn't have any input when someone 
ruined this thing on grazing or timber or whatever it may be.''
    And I mentioned to the Secretary yesterday, and I 
apologize, but I still remember in 1981 when President Ronald 
Reagan was in the White House and invited me to come down, and 
Secretary Block and Secretary Watt were there. And he said, 
``There will be no more war on the West. We are going to come, 
let us reason together.'' And he said, ``When you go out there, 
it is not them and us, it is we are all Americans.'' And when 
you come with your green truck and your badge and your gun and 
all that stuff, keep in mind that a lot of those people have 
been there a long time and they know a lot about the forest and 
they want to use the forest. They do want access and they do 
want use of the forest. And I sustain that idea.
    Further than that though, I know all of you have been there 
a relatively short time. We appreciate you coming today and 
putting up with this Committee, which is probably here to 
harass you and badger you a little bit, but we know that you 
are all big and strong and can handle that.
    [The prepared statement of Mr. Hansen follows:]

  Statement of The Honorable James V. Hansen, Chairman, Committee on 
                               Resources

    The Forest Service manages about 8.5% of total land area in the 
United States, equating to some 192 million acres of land. These areas 
are managed by 9 regions, 155 national forests, and more than 600 
ranger districts. National Forest lands are found in 44 states and 739 
counties. Out West, we have millions of acres of public domain forests. 
To say that Forest Service affects millions of Americans is a gross 
understatement.
    National forest lands are home to a myriad of activities. Americans 
hunt and fish on national forests. Others quietly reflect in the 
solitude afforded them by towering pines and sparkling brooks. Hikers 
and campers use developed trails and facilities for recreation. Cities 
and towns utilize resources from watersheds to provide drinking water 
to their residents. Indeed, national forests influence our economic, 
educational, commercial, personal, and spiritual well-being.
    We're here to talk about the future of the Forest Service. It is 
fair to say that the Forest Service has changed considerably since it 
was established by Congress in 1905. We need to figure out where it's 
headed and then see if that's where we want it to be going. That's our 
purpose today.
    I've been doing some interesting reading. It seems that the Forest 
Service is no longer the agency that it used to be. In the beginning, 
rangers were required to pass rigorous examinations. Among other 
skills, they had to be able to saddle and pack a horse, build trails 
and cabins, run a compass line, and find their way through the forest 
both in daylight and darkness. They had to know how to scale timber. 
They even had to cook a meal and, most importantly, be able to eat it 
afterwards. These skills had to be demonstrated before an applicant 
could be hired. Experience, not book education, was sought by the 
Forest Service, and they didn't just hire anyone. They hired the right 
person for the job. Thus, a force of on-the-ground experts was created. 
A force that knew the land and what was best for it.
    Gifford Pinchot, the first Chief of the Forest Service, wrote that 
the agency was ``generally recognized as the best [g]overnment 
organization of its day.'' This happened, he claimed, as a direct 
result of the agency's purpose, and its foundation of recognition and 
responsibility. He outlined several of the reasons why the Forest 
Service worked so well. Managers were allowed to be innovative and were 
directly responsible for the land they managed. Those that knew what 
was best for the land were able to do it, not postponed indefinitely by 
bureaucracy and red tape. If any man failed to do his job, he was 
``promptly taken out of it.'' Management policies were dynamic and 
subject to change if a better way was found.
    That description is a far cry from the Forest Service today. Under 
the previous Administration, the agency created mandates, such as the 
Roadless Rule, that applied to all lands equally regardless of their 
unique situations. Local managers were effectively prohibited from 
managing the forests. Regulations require assessments of assessments, 
and make even small tasks difficult to achieve. I've heard this problem 
called ``analysis paralysis.'' Today, a 34-cent stamp can stop a timber 
sale. Some employees are no longer responsible for their actions, as we 
saw in the lynx hair debacle. Beetles and fires are destroying great 
stands of timber because of the inability of local managers to manage 
for them. Experience and common sense has been replaced by booksmarts. 
Indeed, it looks as though the Forest Service has lost its way.
    I don't know if there's a specific occasion or point in time when 
this occurred. Perhaps the Forest Service has chosen to follow a 
sustained vision rather than a sustainable vision. Pinchot's axiom 
``the greatest good for the greatest number in the long run'' appears 
to have been downtrodden by a new ideal that places preservation as the 
top priority and leaves local managers dangling without the tools to 
manage the nation's forests. Following this ideal, the Forest Service 
has replaced management of timber, once thought of as a commodity and a 
renewable resource, with recreation management. This must be changed.
    It is important to realize, however, that none of us want all of 
the timber on our national forests to be logged. In fact, some of the 
most beautiful places I have ever seen are in national forests. One of 
the first things I did as a Congressman was to sponsor the first and 
only bill that designated some national forests lands in the State of 
Utah as wilderness. That's the beauty of the multiple use concept 
coupled with a vision of sustainability. Uses can be balanced and 
forests can be healthy at the same time. Local economies can benefit; 
so can hikers. It's not an all-or-nothing situation like some groups 
lead you to believe.
    If the Forest Service has truly lost its way, it is time to put it 
back on track while we still have the chance. It's going to take a lot 
of hard work to make this agency be the ``best government 
organization'' that it used to be, but I believe it's possible. Forests 
must once again be managed for multiple uses and sustainability. 
National Forest timber must once again become a commodity. Management 
tools must be restored to local managers. The people on the ground, not 
in Washington, should have the say on what happens in local forests. 
Like Gifford Pinchot said, give them their heads, and then let them use 
them.
    With that said, I would also like the record to reflect that I have 
had a good relationship with the Forest Service, especially with Chief 
Bosworth, who served as Regional Forester in Ogden, Utah. I also have a 
close working relationship with the Forest Supervisors and District 
Rangers in Utah, and I know that they have only the best of intentions 
for the Forest Service. I am pleased to have them in leadership 
positions in this agency. Chief, you have some good people on the 
ground. Let's let them lead. We have worked together on a number of 
issues over the years, and I hope that our relationships continue to be 
fruitful.
    I look forward to hearing from our panel today. I'm sure this will 
prove to be an interesting discussion.
                                 ______
                                 
    The Chairman. With that said, Mr. Kildee, are you the 
spokesman or is Mr. Kind the spokesman? I turn to my friend 
from Wisconsin.

 STATEMENT OF THE HON. RON KIND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Kind. Thank you, Mr. Chairman. I want to thank Madam 
Secretary for her presence today, and bringing us to speed on 
this very important issue. But first of all I want to thank you 
for taking time out of your busy schedule to visit the Badger 
State on Earth Day and meet with a lot of the State and local 
officials, and also the conversations we now have. We have been 
battling a very important problem in the State of Wisconsin. 
For the first time, chronic wasting disease has been detected 
east of the Mississippi, affecting our deer herd. And just to 
put this in economic perspective, everyone knows that deer 
hunting is fairly popular in the upper Midwest. In the State of 
Wisconsin alone, based on 1996 statistics, it is a $2.6 billion 
economic impact for the entire State, and now we have detected 
it east of the Mississippi. It has been detected west of the 
Continental Divide. It is sweeping across the continent. We 
look forward to working with you and your Department in regards 
to perhaps some emergency funds to get out ahead of the curve 
on eradication programs and how we can best implement 
prevention programs for this. I thank you for your attention to 
that matter.
    Now, in regards to the subject of your testimony today, the 
Roadless Conservation Rule, this is a very important rule, and 
many of us are somewhat chagrined and a little disappointed in 
how slow the Department has been in implementing the Roadless 
Conservation Rule. It has been almost a year to the date when 
you had indicated that you were going to put a hold on going 
forward on the new rule, while at the same time you stated that 
providing roadless protection for our National Forests is the 
right thing to do. You asserted your commitment to roadless 
protection, yet you wanted to reopen the process, a process 
that had countless public comment period, with over 600 public 
meetings, resulting in over 1.6 million documents produced on 
the Roadless Conservation Rule. And for many of us, we felt 
that there was plenty of vetting throughout the course of that 
process, and now are somewhat surprised that the Administration 
is so slow in regards to moving forward on this very, very 
important rule.
    And from my perspective, I think it is sensible to move 
forward on the rule for a host of environmental and fiscal 
reasons. Over 383,000 miles of road crisscross our National 
Forest today, and these roads have generated an $8.4 billion 
repair backlog, yet the Forest Service receives less than 20 
percent of its annual maintenance needs. And it is the taxpayer 
that is ultimately saddled with the cost of this maintenance. 
And until this backlog is dealt with sufficiently, it makes no 
fiscal sense to be building more roads and adding to future 
backlog problems until we can get a grip on existing problems 
as they exist, and that is this routine repair and maintenance 
on the roads right now, resulting in this 8 billion plus 
backlog. Roads also generate significant public safety and 
environmental problems, increased fire risk and increased 
chance of landslides and slope failures that endanger 
watersheds and fish habitat. The flip side of this problem is 
that the unroaded areas have enormous ecological benefits as 
fish and wildlife habitat, as bulwarks against invasive 
species, and in sources of drinking water, just to name a few.
    And that is why many of us believe that the time has come 
to move forward on the Roadless Conservation Rule. And we 
appreciate your attendance. We appreciate the focus you have 
given to this important subject, and we will look forward to 
your testimony today. Thank you.
    The Chairman. I thank the gentleman. You probably notice 
that our friend, Charlie Norwood from Georgia is sitting with 
us. I ask unanimous consent that Charlie Norwood can 
participate in this meeting and sit on the dais.
    Is there objection?
    Hearing none, thank you.
    Mr. Walden had an opening statement.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman, Madam 
Secretary, colleagues and guests.
    I cannot emphasize strongly enough the desperate state of 
affairs in our forests and our rural communities. Report after 
report produced by the General Accounting Office have 
consistently sounded the alarm that our national forests in the 
West are at critical risk to catastrophic fire. And indeed, in 
my district and throughout the west we have seen fires that 
have burned hotter and hotter every year. Meanwhile, at a time 
when our forests are choked with trees, the people in the small 
towns they live in are being choked economically. Some mills in 
my district have resorted to importing logs from as far away as 
Alaska and New Zealand, just to keep the communities in which 
they operate alive.
    Mr. Rey, I know you understand this as you were recently in 
one of those communities, probably the most distressed in my 
district, John Day, Oregon. You heard firsthand of the failure 
of the Forest Service to be able to prepare sales that will 
survive a court challenge. While I am certain the dedicated 
people in the Forest Service who want to properly manage this 
national resource, must be frustrated at their inability to get 
anything accomplished that meets a court challenge. I daresay 
that frustration is a flicker in the day compared to the 
lightning in the night frustration of the people who are losing 
their jobs in their communities. Why does it take years and 
years to get approval to remove even dead, burned and diseased 
trees? I highly doubt there is a member of this Committee who 
would wait 3 or 4 years or perhaps forever to replace a dead 
tree in their back yard. In my district the Federal Forests are 
our back yard, and if this were public housing, the press would 
call the Government a slumlord. I know you share my concerns 
and I know you are working to try to find solutions.
    Where the Forest Service has been able to get approval to 
properly manage the forests, we are able to control fire and 
produce healthier stands, and I look forward to hearing more 
about this Administration's charter forest concept because I 
believe it may hold hope for managing our forests in a 
healthier way, in a way that will stop the death of our timber 
dependent communities.
    I also look forward to your comments on the implementation 
of the Northwest Forest Plan. The promises made to the people 
of the Northwest simply have not been kept. The facts are clear 
on that. The issue is what can we do to meet the goals that 
were promised to the people in the Northwest? And given the 
incredible fire danger we face in my district, I want to also 
get on the record an assurance that if various conditions are 
met, the Forest Service will permanently keep the tanker base 
in Medford open. As you know, both of our Senators, Ron Wyden 
and Gordon Smith, and Congressman DeFazio and I, are committed 
to working with you and this Administration to keep this base 
open and operating.
    Finally, and right now most importantly, I would like to 
solicit your comments regarding the terrible situation 
afflicting the good people of the Klamath Basin. As you may 
know, this Committee, especially Chairman Hansen and Mr. Young, 
worked closely with me and with Chairman Combest on the Ag. 
Committee to earmark $50 million in the farm bill's EQUIP 
program specifically for conservation projects in the basin. In 
addition, I am pleased to announce that we were able to get the 
legislation passed by this Committee, cosponsored by my 
colleague, Mr. DeFazio and passed by the House, inserted in the 
farm bill, to require a study of fish passage issues at 
Chilequan Dam, which presently blocks 95 percent of the habitat 
for the suckerfish, which are endangered.
    And finally, the legislation, farm bill legislation 
includes some 750 million in conservation funds, water 
conservation funds, Madam Secretary, that could really provide 
us with the funding we need to solve the problems in the 
Klamath Basin.
    I commend you and your staff for the great work you have 
done to help solve the problems in that basin. As you know, the 
water was cutoff to 1,400 farm families, and while we still 
don't have the final information on what kind of flows we will 
see this year for them, or waive the biological opinion from 
NAS. I know the situation is severe. I also know that for 
decades and decades, literally projects have been identified 
that will improve water quality and water quantity, that will 
improve habitat, that will improve wetlands, that will improve 
the environment and make sure we have water for the people. 
What we lack is a commitment from the Government to go in and 
actually fund and implement these projects. And certainly there 
are Native American projects and issues that must be dealt with 
in the basin. So I look forward to continuing to work with you 
and to learning more about how you might be able to access 
these various pots of money in the farm bill that we will vote 
on tomorrow to help solve the problems in the Klamath Basin.
    Thank you, Mr. Chairman, for your continued and strong 
support to stand up for the farmers and ranchers and improve 
the problems in the basin, and for your willingness and the 
work of your staff to hold the hearing in Klamath and to hold 
the hearing back here on the NAS study. And to help us find 
real solutions that will work for the fish, the water fowl and 
the farmers and ranchers. And with that, I appreciate your 
courtesy in allowing me to share those remarks.
    The Chairman. I thank the gentleman.
    One further opening statement, and then we will go to the 
Secretary. Mr. Simpson.

 STATEMENT OF THE HON. MICHAEL K. SIMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. Mr. Chairman, thank you. I didn't have an 
opening statement to start with, but I did want to comment on a 
couple of things that were just said, one dealing with the 
Roadless Rule.
    And contrary to some people's perception, it was not the 
Bush Administration that gutted the Roadless Rule as some 
groups have indicated, some environmental groups and others 
have indicated that that is the case. It was a Federal Judge in 
Boise, Idaho that put an injunction on the Roadless Rule 
because it was put into effect illegally, and on May 10th 2001, 
the U.S. District Court in Boise issued a preliminary 
injunction enjoining the Forest Service from implementing all 
aspects of the Roadless Area Conservation Rule. The Court based 
its decision in part on concerns related to the public's 
review, mainly that the Court conclusively finds that the 
comment period was grossly inadequate, and thus deprived the 
public of any meaningful dialog or input into the process.
    Since that time, the Forest Service, as I understand it, 
has put together the Forest Roads Working Group, which is a 
group of all stakeholders, land users, environmental groups 
trying to work on this rule to try to come to some compromise 
that will work, and I understand--and you can verify this 
during your testimony, if you would, that during that time 
period since this rule was enjoined by the Federal Judge, that 
there has not been one road built in a roadless area; nor has 
there been one tree cut in a roadless area that was designated 
before.
    So the claim that somehow the Administration is gutting the 
Forest Service and the Roadless Rule that was proposed by the 
Clinton Administration I think is just false. So I wanted to 
get that on the record.
    The Chairman. Thank you. I didn't mean to exclude Mr. 
DeFazio, I apologize.

  STATEMENT OF THE HON. PETER A. DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman, Madam Secretary, 
Chief, and Secretary Rey.
    I have had correspondence, Madam Secretary, with both the 
Chief, his predecessor Chief with Assistant Secretary Rey and 
his predecessor, on an issue that I have been trying to get the 
attention of the past amendment, and hopefully yours, for 
nearly a decade now.
    The Clinton Forest Plan was destined to fail in part 
because it based a substantial amount of its harvest in old 
growth. Timber, which was always the heart of the controversy, 
at the time of the drafting of the Clinton Forest Plan I 
attempted to get the Administration and the scientists and Lord 
Thomas to look at an alternative, which would reserve the 
remaining old growth but move to a more dispersed forestry over 
a larger land base. Subsequent to that, work has been done by 
Jerry Franklin and other scientists, developing this sort of a 
approach on some forests in the Northwest for different 
reasons. It is credible environmentally. You can get the same 
output. You can actually get more reliable timber outputs and 
potentially certainly greater numbers than you are getting now, 
and you don't have the controversy over the harvesting of old 
growth.
    We have hundreds of thousands, millions of acres, 
particularly in the coast range that are reaching a critical 
point. If we don't go in there and do some thinning in those 
areas, you will never be able to go in and thin because the 
trees won't be able to develop the root systems. I would urge 
any--I am certain the Chief has made this--I don't know if 
Secretary Rey has made this trip yet, but the Forest Service 
has a great trip where they can take you out into the Siuslaw 
Forest, and just by hiking less than a mile, you can see a 
stand and trees that are about 10 inches in diameter and a 
barren ground. You can go to a thin stand see trees that are 
13, 14 inches in diameter with ground cover up about two feet. 
And then you can go to a more robustly thin stand and see even 
larger trees with stuff growing over your head.
    We have hundreds of thousands, millions of acres that need 
that sort of approach, and you know, obviously this is 
something that I believe you could bring together environmental 
groups and industry. You can get out a viable product, you can 
manage these forests back toward a more sustainable ecological 
basis, and in effect, you put off the controversy of what they 
are going to be, whether you're just going to manage them to 
become old growth again some day for 20 or 30 years till the 
next generation, and I know I won't be here then. So I am 
really desirous that we take a look at this approach and I just 
wanted to bring it to your attention. The gentlemen on either 
side of you have both discussed this with me, and I would 
really hope that we can get the Administration focused on this. 
Thank you.
    The Chairman. I thank the gentleman from Oregon for that 
very interesting statement.
    [Laughter.]
    The Chairman. We are grateful to have you again, and I 
appreciate you being here, and we are pretty informal sometime 
in this place, and if you want to turn to your companions for a 
comment, by all means, please do. Madam Secretary, I return the 
time to you.

STATEMENT OF THE HON. ANN M. VENEMAN, SECRETARY, UNITED STATES 
   DEPARTMENT OF AGRICULTURE; ACCOMPANIED BY MARK REY, UNDER 
  SECRETARY, NATURAL RESOURCES AND ENVIRONMENT, UNITED STATES 
  DEPARTMENT OF AGRICULTURE; AND DALE BOSWORTH, CHIEF, UNITED 
                     STATES FOREST SERVICE

    Secretary Veneman. Mr. Chairman and members of the 
Committee, it is a great privilege for me to appear before you 
today to discuss our vision for the USDA's Forest Service. The 
Forest Service, as you know, is a vital part of the Department 
and the future of the agency has great significance, as you 
mentioned, Mr. Chairman, to all Americans, especially those 
though who work, who recreate, who live in or near our National 
Forests.
    As you mentioned, I am accompanied today by Mark Rey, our 
Under Secretary for Natural Resources and the Environment, and 
our Chief of the Forest Service, Dale Bosworth, who is a second 
generation member of the Forest Service with his son also 
involved. And these two gentlemen, along with their whole team, 
are doing a terrific job helping to manage this very valuable 
resource.
    At the outset, Mr. Chairman, I want to thank you for your 
support of the Forest Service role in making the Olympic Winter 
Games in Utah an outstanding and memorable event. Two signature 
events, the Downhill and the Super G took place at the 
Snowbasin Ski Resort located in the Wasatch-Cache National 
Forest. Our intent was to provide Olympics-related activities 
on the National Forest that were not only thrilling but also 
safe and environmentally responsible. I believe that we 
achieved all three objectives. And I was very pleased to at 
least share the opening ceremonies of those Olympics and to 
celebrate with our Forest Service people the success of their 
participation in this mission.
    I also want to note how proud I was to go to New York City 
less than a month after September 11th, and to see our Forest 
Service Incident Management Teams working side by side with the 
New York City Fire Department, to help as they dealt with the 
devastation of the fires and the collapse of the World Trade 
Center. Many people don't know this important role that our 
Forest Service played and Forest Service Firefighters played in 
helping to manage the incidents in New York City following the 
September 11th incidents.
    Our goal is for the Department of Agriculture, including 
all our agencies including the Forest Service, to be a world-
class provider of goods and services to the American people.
    The Forest Service has hard working and dedicated 
employees. It maintains the world's premiere wildland 
firefighting force. It maintains high quality recreation to 
hundreds of millions of visitors each year. National forests 
are the source of clean water to hundreds of communities 
throughout our country. Forest Service scientists are world 
leaders in forest and rangeland research. The agency maintains 
the oldest and most comprehensive forest census in the world. 
And, through its ongoing partnership with state foresters, the 
Forest Service assists thousands of non-Federal forest land 
owners. These are only a few of the many successes of our 
Forest Service.
    Yet, while we have much to be proud of, we also recognize 
that we have much to do. My comments today will focus on five 
key areas: managing our forests and rangelands, cooperation 
across Government, process gridlock, accountability and 
reconnecting with local communities.
    Although this list is not exhaustive, it includes the most 
critical areas for improving the Forest Service in the long 
run.
    In 1960 Congress enacted the Multiple-Use Sustained Yield 
Act, thereby defining the mission of the Forest Service. The 
law mandated that the Forest Service manage all of the various 
renewable surface resources of the National Forests so that 
they are utilized in the combination that will best meet the 
needs of the American people. The ability to actively manage 
our forests and rangelands lies at the heart of the Forest 
Service's multiple use. 73 million acres of National Forest 
land is at moderate to high risk from unacceptably damaging 
wildfire. 70 million acres are susceptible to destruction from 
insects and disease. Invasive species infestations are 
increasing. Our transportation infrastructure and recreational 
facilities are deteriorating and in need of repair. As these 
conditions worsen, it will become increasingly difficult to 
meet the multiple needs of maintaining healthy ecosystems, 
protecting rural communities and supporting the public users of 
our national forests.
    A renewed emphasis on proactive management is the first 
step toward reversing this trend. Management by doing nothing 
is not an option. We must take proactive measures to improve 
forest health, restore watersheds, improve our transportation 
and recreation infrastructure, and address other serious 
resource needs. Proactive management can also provide wood, 
forage, energy and other important products. By emphasizing 
what we leave on the land, rather than what we take, we can 
ensure that our active management will be environmentally 
responsible while producing forest and rangelands that are more 
resilient, productive and better able to provide goods and 
services and other important benefits to people and 
communities.
    Key to the success of the Forest Service is its ability to 
cooperate with other agencies to accomplish its mission. Our 
joint effort with the Department of Interior to implement the 
National Fire Plan is an excellent example of our commitment to 
establish a seamless delivery of services across Government. On 
April 10th, the Departments of Agriculture and the Interior 
announced the creation of the Wildland Fire Leadership Council 
to achieve consistent implementation of the goals, action and 
policies of the National Fire Plan. This council oversees the 
development of consistent fire management plans, a uniform set 
of outcome-based performance measures, common data elements and 
reporting systems, unified procedures for the delivery of an 
effective hazardous fuels reduction program and a unified 
preparedness model and a number of other significant measures 
to ensure consistent management between the departments and 
across the landscape.
    In addition, last August, the two departments, in 
cooperation with the Western Governors Association, tribal 
interests, the National Association of State Foresters and the 
National Association of Counties, adopted a 10-year wildfire 
strategy, establishing a new collaborative approach to reducing 
wildfire risks to communities and the environment. The 
implementation plan for the 10-year strategy will be finalized 
soon and will establish, for the first time, a uniform set of 
interdepartmental goals, performance measures and tasks for 
improving prevention and suppression, reducing hazardous fuels 
to protect communities, restoring fire-adapted ecosystems and 
promoting community well-being.
    Perhaps our greatest challenge is to address what Forest 
Service Chief Dale Bosworth describes as ``analysis 
paralysis.'' This is caused by overlapping statutory 
requirements, unnecessarily complicated internal rules and 
procedures. Several decades of court-made law and a 
proliferation of appeals and litigation have combined to 
substantially delay and increase the cost of our decisionmaking 
processes. Each year the Forest Service processes more NEPA 
documents to support management decisions than any other 
Government agency. According to Forest Service estimates, the 
process and paperwork required to: (1) complete these 
documents, (2) meet other statutory and regulatory 
requirements, and (3) prepare agency decisions to withstand 
possible appeals and litigation, account for between 40 and 60 
percent of the total time spent on management activity. This 
does not include the time associated with appeals and 
litigation, which frequently ensue once decisions are made. 
Frequently the onerous process does little to improve the 
quality of agency decisions.
    The Forest Service is preparing a report to the Chief on 
process gridlock. The report will provide a diagnosis of the 
factors that contribute most directly to unnecessary and 
counterproductive procedural delays. We hope it will stimulate 
a constructive dialog that will help us identify our most 
serious problems and solve them together.
    Consistent with the President's management agenda, the 
departments and the Forest Service are committed to improving 
our financial and performance accountability to the Congress 
and to the public. First and foremost we are committed to 
fidelity in the management of taxpayer dollars. To that end, we 
have committed significant departmental resources to helping 
the Forest Service and the Department achieve a clean audit 
opinion. The Forest Service has already made significant 
progress in reconciling the agency's cash records and 
accounting for real property. It is a priority to achieve a 
clean audit for the Forest Service, and our Chief Financial 
Officer and Under Secretary Rey are actively engaged in 
assisting with process reforms to achieve that goal.
    We are also committed to improving the way the Forest 
Service measures its performance. As demonstrated by our 
progress under the fire plan, the agency is moving aggressively 
to account for its accomplishments using meaningful, outcome-
based performance measures that fully account for what it 
achieves with each investment. We are also working across 
Government to integrate the Forest Service's performance 
measures with those of other land management agencies. Our 
progress is somewhat limited by the agency's over complex 
structure that emphasizes programs over performance. The agency 
appreciates the assistance Congress gave to begin to address 
the issues during the 2001 appropriations process. We would 
like to continue to work with this Committee and the 
Appropriations Committees to simplify the Forest Service budget 
while placing greater emphasis on performance. By focusing on 
performance, we expect the agency to measurably improve in the 
quantity and quality of goods and services it delivers to the 
public per unit of investment.
    To succeed in the long run, the Forest Service must 
establish and maintain strong ties to local communities. Our 
recent success with the Olympics demonstrates what can be 
accomplished when the agency and the communities come together 
as partners. Community-based management can and must be a 
bedrock principle within the Forest Service.
    We have made significant progress toward strengthening our 
relationships with local communities. For example, we have 
worked hard to fully implement the Secure Rural Schools and 
Community Self-Determination Act. Over the last year, we have 
chartered 65 local resource advisory committees, which will 
work with counties and local Forest Service managers to 
identify and implement community-based resource management 
projects. We are receiving positive reports from all over the 
country about the success of these committees.
    Local collaboration is also a fundamental principal of the 
10-year comprehensive wildfire strategy. The strategy 
emphasizes that key decisions on management priorities, 
resource allocation and project implementation are best made in 
connection with communities at the local level.
    Finally, we are working to deliver more local contracts 
across all of the agency's mission areas, particularly in fire 
prevention and suppression. Through the efforts of the Forest 
Products Lab, we are also promoting alternative markets and 
uses for the smaller diameter material and the biomass that 
comes from thinning and fuels reduction projects. The lab has 
actively cooperated with small businesses and in rural 
communities to development new technologies for producing 
furniture, home construction materials and other value-added 
products.
    As Congressman Kind indicated, we highlighted many of these 
innovations during our recent Earth Day celebration at the 
Lab's Advanced Housing Technology Center in Madison, Wisconsin.
    In conclusion, let me re-emphasize our most basic 
objectives. We are committed to managing and restoring our 
forests and rangelands, protecting communities from risk of 
catastrophic wildfires, and building the Forest Service into a 
world-class provider of goods and services to the American 
public. This will require, at a minimum, a sustained effort in 
the five areas that we have identified. We look forward to 
working with the Committee and with you, Mr. Chairman, on these 
and other priorities the Committee might identify as critical 
to the long-term success of the Forest Service.
    Thank you very much again for the opportunity to appear 
today and I look forward to answering your questions and those 
of the members of the Committee.
    [The prepared statement of Secretary Veneman follows:]

 Statement of The Honorable Ann M. Veneman, Secretary of Agriculture, 
                     U.S. Department of Agriculture

    Chairman Hansen and Members of the Committee:
    I appreciate the opportunity to meet with you today to discuss our 
vision for the U.S. Department of Agriculture's Forest Service. The 
Forest Service is a vital part of the Department, and the future of the 
agency has great significance to all Americans, especially those who 
work, recreate and live in and near our national forests.
    I am accompanied today by Mark Rey, Under Secretary for Natural 
Resources and Environment, and Dale Bosworth, Chief of the Forest 
Service. Both Under Secretary Rey and Chief Bosworth have a wealth of 
experience in natural resources, and we are delighted to have them as 
part of our management team.
    At the outset, Mr. Chairman, I want to thank you for your support 
of the Forest Service's role in making the recent Olympic Winter Games 
in Utah an outstanding and memorable event. Two signature events'the 
downhill and super G'took place at the Snowbasin Ski Resort, located on 
the Wasatch-Cache National Forest. Our intent was to provide Olympics-
related activities on the National Forest that were not only thrilling, 
but also safe and environmentally responsible. I believe we achieved 
all three objectives.
    Our goal is for the Department of Agriculture including the Forest 
Service to be a world class provider of goods and services to the 
American people.
    The Forest Service has hard working and dedicated employees. It 
maintains the world's premier wildland firefighting force. It provides 
high quality recreation to hundreds of millions of visitors each year. 
National forests are the source of clean water to hundreds of 
communities throughout the country. Forest Service scientists are world 
leaders in forest and rangeland research. The agency maintains the 
oldest and most comprehensive forest census in the world. And, through 
its ongoing partnership with state foresters, the Forest Service 
assists thousands of non-Federal forestland owners.
    These are only a few of the many successes. Yet, while we have much 
to be proud of, we also recognize we have very much to do. My comments 
today will focus on five key areas:
        1. Managing our Forests and Rangelands
        2. Cooperation Across Government
        3. Process Gridlock
        4. Accountability and,
        5. Reconnecting with Local Communities.
    Although this list is not exhaustive, it includes the most critical 
areas for improving the Forest Service in the long run.
Managing our Forests and Rangelands
    In 1960, Congress enacted the Multiple-Use Sustained Yield Act 
thereby defining the mission of the Forest Service. This law mandated 
that the Forest Service ``manag[e] all the various renewable surface 
resources of the National Forests so that they are utilized in the 
combination that will best meet the needs of the American people.''
    The ability to actively manage our forests and rangelands lies at 
the heart of the Forest Service's multiple use. Seventy-three million 
acres of national forest land is at moderate to high risk from 
unacceptably damaging wildfire. Seventy million acres are susceptible 
to destruction from insects and disease. Invasive species infestations 
are increasing. Our transportation infrastructure and recreational 
facilities are deteriorating and in need of repair. As these conditions 
worsen, it will become increasingly difficult to meet the multiple 
needs of maintaining healthy ecosystems, protecting rural communities, 
and supporting the public users of our national forests.
    A renewed emphasis on proactive management is the first step toward 
reversing this trend. Management by doing nothing is not an option. We 
must take proactive measures to improve forest health, restore 
watersheds, improve our transportation and recreation infrastructure, 
and address other serious resource needs. Proactive management can also 
provide wood, forage, energy and other important products. By 
emphasizing what we leave on the land rather than what we take, we can 
ensure that our active management will be environmentally responsible 
while producing forests and rangelands that are more resilient, 
productive, and better able to provide goods and services and other 
important benefits to people and communities.
Cooperation Across Government
    Key to the success of the Forest Service is its ability to 
cooperate with other agencies to accomplish its mission. Our joint 
effort with the Department of the Interior to implement the National 
Fire Plan is a good example of our commitment to establish a seamless 
delivery of services across government. On April 10, the Departments of 
Agriculture and the Interior announced the creation of the Wildland 
Fire Leadership Council to achieve consistent implementation of the 
goals, action and policies of the National Fire Plan. This council will 
oversee the development of consistent fire management plans, a uniform 
set of outcome-based performance measures, common data elements and 
reporting systems, unified procedures for the delivery of an effective 
hazardous fuels reduction program, a unified preparedness model, and a 
number of other significant measures to ensure consistent management 
between the departments and across the landscape.
    In addition, last August the two departments, in cooperation with 
the Western Governors Association, tribal interests, the National 
Association of State Foresters and the National Association of 
Counties, adopted a Comprehensive 10-year Wildfire Strategy, 
establishing a new collaborative approach to reducing wildfire risks to 
communities and the environment. The implementation plan for the 10-
year strategy will be finalized soon and will establish, for the first 
time, a uniform set of inter-departmental goals, performance measures 
and tasks for improving prevention and suppression, reducing hazardous 
fuels to protect communities, restoring fire-adapted ecosystems and 
promoting community well-being.
Process Gridlock
    Perhaps our greatest challenge is to address what Forest Service 
Chief Dale Bosworth describes as ``analysis paralysis.'' This is caused 
by overlapping statutory requirements, unnecessarily complicated 
internal rules and procedures. Several decades of court-made law and a 
proliferation of appeals and litigation have combined to substantially 
delay and increase the cost of our decision-making processes. Each year 
the Forest Service processes more NEPA documents to support management 
decisions than any other government agency. According to Forest Service 
estimates, the process and paperwork required to: (1) complete these 
documents; (2) meet other statutory and regulatory requirements; (3) 
and prepare agency decisions to withstand possible appeals and 
litigation, account for between 40 and 60 percent of the total time 
spent on management activities. This does not include the time 
associated with appeals and litigation, which frequently ensue once 
decisions are made. Frequently, this onerous process does little to 
improve the quality of agency decisions.
    The Forest Service is preparing a report to the Chief on process 
gridlock. The report will provide a diagnosis of the factors that 
contribute most directly to unnecessary and counterproductive 
procedural delays. We hope that it will stimulate a constructive 
dialogue that will help us identify our most serious problems and solve 
them together.
Accountability
    Consistent with the President's Management Agenda, the Department 
and the Forest Service are committed to improving our financial and 
performance accountability to Congress and to the public. First and 
foremost we are committed to fidelity in the management of taxpayer 
dollars. To that end, we have committed significant Departmental 
resources to helping the Forest Service and the Department achieve a 
clean audit opinion. The Forest Service has already made significant 
progress in reconciling the agency's cash records and accounting for 
real property. It is a priority to achieve a clean audit for the Forest 
Service, and our Chief Financial Officer, and Under Secretary Rey are 
actively engaged in assisting with process reforms to achieve that 
goal.
    We are also committed to improving the way the Forest Service 
measures its performance. As demonstrated by our progress under the 
fire plan, the agency is moving aggressively to account for its 
accomplishments using meaningful, outcome-based performance measures 
that fully account for what it achieves with each investment. We are 
also working across government to integrate the Forest Service's 
performance measures with those of other land management agencies. Our 
progress is somewhat limited by the agency's overly-complex budget 
structure that emphasizes programs over performance. The agency 
appreciates the assistance Congress gave to begin to address the issues 
during the 2001 appropriations process. We would like to continue to 
work with this Committee and the Appropriations Committees to simplify 
the Forest Service budget, while placing greater emphasis on 
performance. By focusing on performance, we expect the agency to 
measurably improve in the quantity and quality of goods and services it 
delivers to the public per unit of investment.
Re-connecting with Local Communities
    To succeed in the long run, the Forest Service must establish and 
maintain strong ties to local communities. Our recent success with the 
Olympics demonstrates what can be accomplished when the agency and 
communities come together as partners. Community-based management can 
and must be a bedrock principle within the Forest Service.
    We have made significant progress toward strengthening our 
relationships with local communities. For example, we have worked hard 
to fully implement the Secure Rural Schools and Community Self-
Determination Act (Public Law 106-393). Over the past year, we have 
chartered 65 local resource advisory committees, which will work with 
counties and local Forest Service managers to identify and implement 
community-based resource management projects. We are receiving positive 
reports from all over the country about the success of these 
committees.
    Local collaboration is also a fundamental principle of the 10-year 
Comprehensive Wildfire Strategy. The strategy emphasizes that key 
decisions on management priorities, resource allocation, and project 
implementation are best made in cooperation with communities at the 
local level.
    Finally, we are working to deliver more local contracts across all 
of the agency's mission areas, particularly in fire prevention and 
suppression. Through the efforts of our Forest Products Lab, we are 
also promoting alternative markets and uses for the small diameter 
material and the biomass that comes from thinning and fuels reduction 
projects. The lab has actively cooperated with small businesses in 
rural communities to develop new technologies for producing furniture, 
home construction materials, and other value-added products. We 
highlighted many of these innovations during our recent Earth Day 
celebration at the Lab's Advanced Housing Technology Center in Madison, 
Wisconsin.
Conclusion
    In conclusion, let me re-emphasize our most basic objectives. We 
are committed to managing and restoring our forests and rangelands, 
protecting communities for risk of catastrophic wildfires, and building 
the Forest Service into a world-class provider of goods and services to 
the American public. This will require, at a minimum, a sustained 
effort in the five areas we have identified. We look forward to working 
with the Committee and you, Mr. Chairman, on these and other priorities 
the Committee might identify as critical to the long-term success of 
the Forest Service.

    [An attachment to Secretary Veneman's statement follows:]
    [GRAPHIC] [TIFF OMITTED] 79342.001
    
    The Chairman. Thank you, Madam Secretary. We appreciate 
your comments. I especially appreciate the kind words you said 
about the Utah Olympics. I guess they really pulled one off. 
Yes, to me it turned out very, very successful, and without the 
help of the Forest Service, we would have never had that 
downhill you are referring to, and appreciate that good work. 
And besides that, we now have a world class new ski resort, 
which of course is far superior than anything we have in 
Colorado.
    [Laughter.]
    Mr. McInnis. Keep in mind, Mr. Chairman, we don't buy our 
snow.
    [Laughter.]
    The Chairman. I had better let all this go with my two 
colleagues from Colorado sitting here. I just had to say that 
with my good friend, Scott, sitting here.
    Mr. McInnis. Pulled a win out of the West.
    The Chairman. And the new member of the Ethics Committee, 
the other gentleman from Colorado, Mr. Udall.
    Let me thank you for that, and point out that most of us 
have got markups. They are calling me to come over to the Armed 
Services right now, but I would like to submit some questions, 
and I would really appreciate your answers to some of those. 
And let me hit the toughest one that this Committee has brought 
up many, many times. I would like you folks to tell us why this 
should be under Ag., Forest Service, and not under Interior. 
Now, that is one of those tough issues, and I understand that.
    Let me also point out to members of this Committee, we have 
got a lot of members here, and I am sure you all have 
questions. I would hope you could hold it within your 5-minute 
period of time, and keep in mind that the acoustics in this 
room are horrible. The one down at 1324, which is all torn up, 
is a little better, so if we can kind of hold the chatter, it 
would be helpful as questions are asked.
    And I am going to turn this over to the Chairman of the 
Subcommittee on Forests and Forest Health, Mr. Scott McInnis, 
from Colorado, and he can manage the meeting, and I would 
appreciate your doing that, and I withdraw the statement I made 
about your areas of skiing.
    And with that, sir, it is yours. Thank you again.
    Mr. McInnis. [Presiding] Mr. Chairman, as I have often 
said, the only mistake we made in Colorado was not drawing our 
border a little further to the west, to pick up that great 
State of Utah.
    Thank you. Under the Chairman's time, he did ask that 
question. I think it is a question, Madam Secretary, that is 
obviously logical, and I think it is a question of interest to 
the rest of the Committee, so we are going to go ahead and 
utilize the rest of Mr. Hansen's time and I am going to ask 
that you answer the question about why is the Forest Service 
under the Department of Agriculture instead of under the 
Department of Interior, and what is the future of that 
arrangement? What do you see? If you would proceed, thank you.
    Secretary Veneman. Well, thank you. I do appreciate the 
opportunity to answer this question, because it is one that I 
think it confusing to the public as well, and as you know, 
around the turn of the century, Teddy Roosevelt determined that 
the Forest Service is a multiple use agency and one that 
harvested substantial amount of produce from public lands, 
should be contained in the Department of Agriculture, and so 
the decision was made to place it in the Department of 
Agriculture. Forest Service has continued to remain a multiple 
use agency, and as I indicated in my opening statement, we 
continue to operate the forest lands for multiple uses.
    I think that the issue is much more important to look at 
from the standpoint of how public lands are operated, rather 
than where it may or may not be located. And I think one of the 
very important things that has happened particularly under this 
Administration is the commitment that we have to work together 
in a seamless way with our friends who manage other public 
lands in this country, and that has been particularly apparent 
as we have dealt with the National Fire Plan. As I indicated, 
we worked with the National Governors Association, to design a 
plan last summer establishing the National Fire Plan. We have 
the National Fire Center, which is located in Boise, Idaho, 
which I recently had--or last summer also had the opportunity 
to visit again a joint project of the Department of Interior 
and the Department of Agriculture, where we seamlessly deal 
with fire issues throughout the country. We just established 
this new Wildland Fire Management Council, which Secretary 
Norton and I announced together. Again, our fire management in 
this country is being put together in a completely seamless 
way, and it seems to me that is what the American public ought 
to be concerned about, how we are managing rather than where 
the boxes are placed.
    I would note also that there are some very important areas 
where the Forest Service overlaps with other parts of the 
Department of Agriculture. Clearly in the resource areas and 
the management of private forest lands, which we do in 
conjunction with the Natural Resource Conservation Service. We 
work closely with other conservation activities in the 
Department through the Forest Service. Many of our research 
activities work with the Agricultural Research Service and the 
Forest Service researchers. We are finding an increasing 
overlap with the duties and the obligations of the Animal Plant 
Health Inspection Service and the Forest Service as we seek to 
manage increasing numbers of pests and invasive species in 
forest land, some of which also impact our agricultural lands.
    And so we find that we indeed do really appreciate having 
the Forest Service in the U.S. Department of Agriculture. It 
plays a very valuable role, and we are continuing to expand 
that role. We are now, under the guise of Homeland Security, 
for example, using these Forest Service Incident Management 
Teams more broadly as we are looking to manage pest and disease 
outbreaks, for example. The Forest Service is now a full 
partner with our Animal Plant Health Inspection Service. So I 
can say that we are certainly very proud to have the Forest 
Service as part of the Department of Agriculture, and we think 
it is a very valuable partner in many missions of our 
Department.
    Mr. McInnis. Thank you, Madam Secretary, let me begin by 
first of all commending you on the Fire Council.
    As you know, that is absolutely critical, I think that 
coordination. I can tell you in my district, as you know, we 
have a couple fires going right now, and we had the No. 1 
priority last week, and we will have a number of others that 
occur out there, but over the weekend we had a fire in a small 
town called Westcliffe, and some of the local people commented 
about the Forest Service saying that they could not believe the 
response. Within an hour they had smoke jumpers in there. I 
mean, it really seems that you have gotten your act together. 
Now who knows what this season holds, but, you know, a 
thousand-year fuel measurements and things like that show we 
are in for a tough year. I want to commend you on that.
    I also want to commend the Forest Service, you mentioned 
early on that you had very good employees, and I think that is 
absolutely right. We have a lot of dedicated professionals out 
there. We had a Committee hearing earlier in the year where we 
had an ex-Forest Service employee talk about all of the threats 
that Forest Service people had received and kids at school have 
received threats. We have not been able to verify any of that 
kind of testimony. In fact, in my community, and it is very 
controversial, because of the approximately 120 communities I 
have, 119 of them are completely surrounded by public lands, 
much of which is forest. Our relationships with our local 
people are excellent, and I commend the Forest Service for 
that.
    I want to also mention that we have completed the White 
River National Forest. The plan has been signed and results 
will be released here pretty soon. One individual, in 
particular, Rick Cables, the regional guy out there, was 
excellent. I think he has done very, very well in bringing the 
parties together.
    To give you an idea how controversial this was, Madam 
Secretary, 15 years ago, when we did the plan, we had 200 
comments. This time we had 40,000. Now a lot of those were 
machine-generated, computer-generated, but a lot of them were 
not, and it took a real balancing act. I felt so deeply about 
it, for the first time in the history of Congress, I actually, 
as a Congressman, wrote my own forest plan, which was done by, 
as you know, by professionals and so on, but I felt very 
seriously. But anyway, I thought that is worth mentioning. 
Those are the good things.
    I need to talk to you about these biologists on the lynx 
survey. As you know, the Forest Service did not mete out any 
kind of discipline. In fact, as I understand, these employees 
may have received bonuses for performance or pay raises. Jack 
Ward Thomas, who was President Clinton's head of the Forest 
Service, spoke the other day and said that this necessitates 
accountability, and I would just urge that you take a personal 
look at that and see if the punishment fit the misbehavior.
    Accountability is absolutely crucial, as you know, for our 
biologists or our professionals, and all we need is one bad 
apple in the bushel and, as you know, it throws a disdain on 
the rest of the bushel. It is the same thing here. When we 
speak of good employees, we have a couple of employees that 
commit obvious wrongs, and if we don't address that in an 
appropriate fashion, and I am not being critical of you, you 
have come in after the situation.
    Also, I would like to ask, and by the way, this clock, I 
have my own 5 minutes. That thing is not right.
    [Laughter.]
    Mr. McInnis. That was the Chairman's 5 minutes before. Now 
I get my own 5.
    But anyway, as you know in the East, you have east of the 
Mississippi River 73 or 75 percent of the surface water flow in 
the country. Up in the Northeast, Northwest section, you get 
about 13 percent, but in the West, which consists of about half 
the land mass in the country, we get 14 percent. In the East a 
lot of times they worry about drainage water. In the West, we 
worry about being able to store that water. We have lots of 
opposition against water storage in this country, people who 
don't understand it, people who are not dependent upon it. We 
use it for flood control, we use it for a generation of 
electricity. We use it for reservoirs. The first dam in the 
country we know of was the Anasazi Indians down in the 
Southwest part of the State. I mean, there is lots of history 
to it.
    The State that I live in, Colorado, the average elevation, 
we are the highest place on the continent, so a lot of States 
depend on us for that water. And in the past, the Federal 
Government has always recognized the States negotiating between 
States. Well, under the previous Administration, the Forest 
Service came in with something called bypass flows. I just 
would urge and would like a comment, and I don't want to catch 
you off-guard because it is a complicated issue, but I would 
urge that the Forest Service consider very carefully that 
before they jump the gun and put in these things like bypass 
flows, that they understand the, while it may be good-faith 
intended, that they understand the implications and the 
unintended consequences that happen when you deal with water 
law in the West, which is uniquely different than water law in 
the East.
    Of course, this year with our drought, the likes of which 
we haven't seen for 100 years, and only 100 years, because that 
is when we started keeping records, this is the cooperation 
between our Federal Government and those of us out there really 
demand attention to this multiple-use concept and the critical 
nature. As you know, out there in the West, in a typical year, 
we have all of the water we need for about 90 days, spring 
runoff. The rest of the year, if we don't have it stored, we 
don't get it. And the only way we are going to get through this 
year is because, in the past, we had cooperation with our 
Federal agencies building reservoir projects.
    I am very concerned about the bypass flow and would ask 
that you take a look at that. If you have any comments, I would 
be happy, on the subjects that I just covered, I would be happy 
to have you respond.
    [The prepared statement of Mr. McInnis follows:]

 Statement for The Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    As the Forest Service approaches its second century as the chief 
steward of our national forest treasures, it has run up against a 
challenge that is arguably as onerous and weighty as any the agency has 
confronted since Theodore Roosevelt, Gifford Pinchot and their 
contemporaries first established the National Forest System. This 
challenge is rearing its vexing head in communities all across the 
West, from California's Sierra Nevada, to the Black Hills of South 
Dakota, the Bitterroot Valley in Montana, and Colorado's southern 
Rockies. The great challenge for the Forest Service, as I see it, is no 
less than defining its mission--its very purpose for being--in a time 
when our forests are under diverse and at times irreconcilable 
pressures from rival quarters of the American body politic.
    For generations, the Forest Service was an agency guided in statute 
and in mindset by the multiple-use ethic--a guiding concept that the 
likes of Teddy Roosevelt and Pinchot held near and dear. President 
Roosevelt forcefully articulated that multiple-use ideal like this: ``I 
recognize the right and duty of this generation to develop and use the 
natural resources of our land; but I do not recognize the right to 
waste them, or to rob, by wasteful use, the generations that come after 
us.'' This notion that the national forests should be managed for the 
people--both those living and those to come--was enshrined in both the 
National Forest's Organic Act and in the Multiple Use Sustained Yield 
Act decades later.
    Today, it is not at all clear that the agency's multiple-use 
heritage endures in any meaningful way. To be fair, this erosion of the 
multiple-use concept is partially Congress' fault. This body has passed 
a myriad of laws that have resulted in a sea of administrative 
regulations and court decisions that have made the Forest Service's 
multiple-use charge nightmarishly difficult. While these laws were 
implemented with the best of intentions and for policy reasons that 
remain verifiably critical, together they have had the cumulative 
impact of creating a decision-making climate that is unspeakably 
confused and complicated--a veritable invitation to litigation. This 
has resulted in a decision-making apparatus that is focused more on 
``process'' than on-the-ground, real world outcomes.
    While Congress bears real responsibility for this unacceptably 
bureaucratic approach to forest management, the lion's share of the 
blame rests at the doorstep of the agency. Many of the wounds of 
needless bureaucracy and unwanted process have been self-inflicted by 
my friends in green shirts. In an apparent attempt to be all things to 
all people all the time, the Forest Service has become the agency of 
multiple-processes, instead of multiple-use. The agency has fashioned 
tomes of self-imposed administrative guidelines and directives that 
rival the Federal tax code in complexity. The consequence is that the 
Forest Service's very purpose for existence has been entirely obscured, 
and the public feels increasingly isolated--both in person and spirit--
from their National Forests.
    Clearly this must change, but change will only occur if the 
agencies leaders move affirmatively and boldly to outline a vision for 
the future of the agency. As they do, my advice is two-fold--focus less 
on process and more on real world outcomes, what's left on the ground 
as it were; and return the Forest Service to its legacy of multiple-
use, as the agency's founders intended.
                                 ______
                                 
    Secretary Veneman. Well, thank you. You have covered a lot. 
Let me see if I can touch on a few of these.
    First, thank you for your comments on the Council. The 
Council actually does meet this afternoon and beginning to, 
particularly with the fire season, as it is now beginning, I 
think it is important that this council meet and really look at 
the issues we are facing today, as well as how we coordinate 
for the long term.
    On the lynx issue, as you know, both Secretary Norton and 
I, immediately, upon learning of this issue, did ask our 
Inspector Generals to look into this as an investigative 
matter, which they have been doing. Our Forest Service is in 
the process of reviewing the report and looking at actions.
    I do know, however, from talking with the Chief, that the 
person that appears, at least from the Forest Service side, 
that was most intimately involved with this issue has retired. 
So he is no longer with the Service.
    The issue of water storage in the West, as you know, I come 
from the West, and I come from California, where water is a 
very, very big issue, particularly, the availability and 
storage of water and how it impacts agriculture and the forest, 
and so it is something--
    Mr. McInnis. And you are the beneficiary of some very good, 
clean Rocky Mountain spring water, I might add.
    Secretary Veneman. We recognize that.
    And I was recently in Colorado, and the issue of bypass 
flows was an issue that came up during our conversations in our 
round table with a number of farmers and members of the 
community. I must say the whole issue of water I could have 
been in my home State of California because the issues are so 
similar between our two States. But I think it is important to 
recognize that we have to work with the States, as the Forest 
Service, mostly with the States and the water rights holders to 
determine, in a cooperative way, how to resolve these water 
rights issues.
    There are a number of water rights claims that we are 
trying to work through in the Forest Service, and we are 
putting a priority on trying to work through these cases as 
expeditiously as possible to create the fairest outcomes for 
all of the parties involved, and I think that is the best way 
that we can work through these issues is to involve all of the 
stakeholders to work closely with everyone and to try to come 
up with the fairest solution that we possibly can.
    And I finally want to simply reiterate the value of our 
employees. As I indicated in my opening statement, I think it 
is extremely important that we have employees that are involved 
in local communities. We have to involve local communities in 
local forest decisions because, as you know, and I certainly 
know, having grown up going to a national forest every summer 
during my childhood, every forest is unique, and so we have to 
have local input into these decisions, and local involvement 
with communities and people with the Forest Service, and that 
is absolutely a goal of our Department.
    Mr. McInnis. Thank you, Madam Secretary.
    Mr. Inslee?
    Mr. Inslee. Thank you, Mr. Chair.
    I appreciate you being here. We are delighted to have a 
chance to talk with the Administration about these important 
issues. I wanted to ask you a general question about the 
ability for your agencies to enjoy the trust of the American 
people. You have a very difficult job. You are between a lot of 
different forces, and it seems to me keeping and winning that 
trust is very important on whatever you think in any of these 
issues. I am very concerned about that right now for a variety 
of reasons because I think a review, even a cursory review of 
the Administration's environmental policies have created a 
very, very significant mood of distrust of the Administration. 
I want to just ask you about some of those things. I want to 
review them just quickly.
    First, the Administration abandons an environmental policy 
and their energy policy and designs it with the oil and gas 
industry, and then refuses to tell us about their contacts with 
the oil and gas industry;
    Second, the Administration waives environmental rules 
regarding hard-rock mining;
    Third, the Administration refuses to work with the 
international community to do something about global warming;
    Fourth, the Administration attempts to essentially defund 
the Superfund Trust Fund by not implementing the revenue 
sources;
    Fifth, the Administration wants to drill for oil in the 
Arctic in the refuge created by Dwight David Eisenhower;
    Sixth, the Administration wants to weaken the Clean Air 
rules at the very time where there is an epidemic of asthma in 
our children in this country;
    Seventh, the Administration, we hear, is attempting to 
weaken the mountain-top removal rules on coal mining;
    Eighth, the Administration apparently is intent on 
weakening wetlands mitigation rules;
    Ninth, the Administration refuses to defend the Roadless 
Area Rule, a rule adopted after 1.2- or 1.6 million comments by 
the American people, despite the specific promise of Attorney 
General Ashcroft to defend that rule.
    Now I think a cursory review of this environmental failure 
would be described as disappointing, and I think it arguably 
can be characterized as the worst environmental failure of any 
Administration in American history, and I will leave that to 
argument. But I think it has created a significant distrust of 
the American people of the Administration's ability to act as a 
fair broker for these precious national resources, and I think 
that is very difficult in the discharge of your duties.
    Now I realize you are not responsible for a lot of the 
failures I just alluded to. Your agencies were not involved in 
significant numbers of those, but that distrust I think washes 
over to your duties.
    So I just ask you a general question. Why should the 
Administration trust your agencies when it comes to the 
discharge of environmental law and what do you believe you can 
do to regain or win that trust? And that is a general question 
to any and all who would like to answer it?
    Secretary Veneman. Well, I think certainly I think it is an 
unfair statement to say that this Administration has not paid 
attention to the environment. I think that we have done a 
tremendous amount, and I worked very closely with both 
Secretary Norton and Administrator Whitman as we worked through 
a number of environmental issues and, in fact, I just had them 
both over to our Department for a joint event earlier this 
week. I know that we are all working to do the right thing with 
regard to the environment.
    Let me just say that on the agriculture side, the 
environmental groups have strongly supported our Department as 
we put out our book last year on food and agriculture policy, 
``Taking Stock for a New Century,'' because it so emphasized 
the environmental interface with agriculture and the role of 
our forests.
    I think that that book is an example of how strongly we 
take our environmental responsibilities. We have a farm bill 
that will be voted on soon. That farm bill will have more money 
for environmental spending than any farm bill in the history of 
this country, and I certainly think that that is something that 
we are proud of, and something the Administration supported, 
and something that is an important part of our environmental 
record.
    In the energy policy, we have a strong emphasis on 
renewable resources. We have a strong emphasis on wanting to be 
less dependent on foreign sources of energy, which is why the 
energy policy looks for domestic sources, not only in terms of 
new sources of oil and gas, but also renewable sources from 
agriculture, and both the energy policy, the energy bill that 
has been passed by the Senate has a renewable energy standard, 
something the Administration supports, and the farm bill is 
going to have an energy title for the first time.
    I think all of these things are indications of a strong 
emphasis on balanced environmental policy that will provide 
benefits to the environment, while we have the best utilization 
of our resources. That is what this Administration is about, is 
about finding the right balance. I think that the 
characterization that you have described is not a fair 
characterization of this Administration's environmental policy.
    Mr. Inslee. Thank you. I don't have the Chairman's same 
timepiece, so I will have to defer to the next round.
    Thank you.
    Mr. McInnis. I would point out to the Ranking Member that 
you did go over your time about the same time I went over my 
time, and remind the ranking member that the time previous to 
my comments were those of the Chairman answering his question.
    Mr. Inslee. We can't even agree on the time. I am 
disappointed.
    [Laughter.]
    Mr. McInnis. We can agree on who is Chairman.
    [Laughter.]
    Mr. McInnis. Mr. Gallegly, you may proceed.
    Mr. Gallegly. Thank you very much, Mr. Chairman.
    Welcome, Secretary Veneman.
    Secretary Veneman. Thank you.
    Mr. Gallegly. It is refreshing to have a fellow Californian 
at the Cabinet level, particularly representing the agriculture 
interests in this country. For all too long I think we have had 
too few people that really understood agriculture and the West 
that we have today, and it is very welcome to my constituency 
and I think to the entire West.
    I want to personally take just a minute and thank you for 
your help with the Glassy Wing Sharpshooter issue. My good 
friend, George Radanovich, who has been a stalwart 
representative of the wine industry has, I am sure, brought 
that to your attention, and we have good success with your help 
in declaring the emergency status in California.
    I would like an opportunity at some point in the immediate 
future to discuss with you the issues beyond the wine industry. 
Certainly the citrus industry is one that has been identified, 
but the one industry that I think has been somewhat 
unrepresented, and it is probably due to their own lack of 
organization, is the nursery business. We have three of the 
largest nursery growers in the country, and while this issue 
does not have a direct impact on the product, it does have a 
direct impact on their ability to move their product. So, for 
all intents and purposes, the product is no good if you can't 
move it and sell it. So I would really like an opportunity to 
discuss that with you sometime in the very near future or a 
member of your staff.
    The issue of the wildfires in the West, we know this as not 
something that may happen. It is a matter of when it happens. 
Of course, in my district, where the base for the 146 Air 
National Guard, it provides a tremendous amount of support for 
fire suppression in the entire West. In fact, we have 13 new 
MAF units coming online to work in the C-130's and four new J 
model C-130's, which should go a long way.
    In the interest of time, as the Chairman said, we do have 
an acoustical problem. We have a lot of folks here. I do have 
some questions, with unanimous consent, I would like to submit 
to the record for Chief Bosworth and also for you, Madam 
Secretary, on the fire issue.
    In the interest of time, then, I would defer back to our 
Chairman, and thank you very much for being here.
    Mr. McInnis. Thank you. On the unanimous consent, any 
objection?
    No objection, so ordered.
    Mr. McInnis. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Madam Secretary, just sort of following up on my 
introductory remarks and recent statements by the 
Administration regarding the Northwest Forest Plan. If you or 
either of the two gentlemen on either side of you would care to 
answer, what is under consideration for the Northwest Forest 
Plan in terms of revisions? Is there a possibility of 
concentrating on restoration forestry and forestry activities 
in areas that are previously managed and now badly in need of 
thinning and hopefully something that could be done less 
controversially, but will cost some money?
    Secretary Veneman. Well, I think certainly this issue of 
how we manage the forest is an important one and one that I 
covered I think in my opening statement, that we do believe 
that we need proactive management, that we need to be looking 
at, and we are doing a comprehensive look at where the priority 
areas are in terms of thinning the forests, of taking out the 
biggest issues in terms of fire risk and risk of large 
wildfires. And so I think that overall it is important, as we 
look toward the thinning issues, that we actively manage the 
forests, and we are doing that and working closely with the 
Department of Interior as we do this.
    As to the Northwest Forest Plan, I am going to ask Mr. Rey 
to comment quickly on the status of that particular issue.
    Mr. DeFazio. Thank you.
    Mr. Rey?
    Mr. Rey. Each of the agencies that is involved in 
implementing the Northwest Forest Plan has nearly completed a 
review of what needs to be fixed in order to understand, and we 
expect the results back to us in probably a week or two.
    Once we have those results, I think we have a basis for 
discussing with you what sorts of changes need to be made. We 
have talked before, and I am interested in pursuing some of the 
ideas that we have discussed.
    Mr. DeFazio. Well, I thank the gentleman. As I pointed out 
to you in one conversation that perhaps you could, you know, 
there is sort of a unique, but very fragile, opportunity here 
that I see to bring along a substantial body of environmental 
groups and some parts of the industry on a new management 
regime, particularly in dealing with areas like the coast 
range. It is delicate, and has to be approached with a good 
degree of confidence. So I would be happy to have those 
discussions with the gentleman, but obviously any revisions or 
major changes in the plan that are proposed would need to be 
done through a public forum and with the full cognizance of the 
protections of the law, and NEPA or whatever would be required 
for those sorts of changes.
    I assume that is--
    Mr. Rey. That is all correct.
    Mr. DeFazio. If I could then, Madam Secretary, just as a 
famous former member said, ``All politics is local,'' I 
recently was conducting a town meeting, this is a very minor 
issue, I just bring it to your attention. I don't ask for a 
response now, but I have had concerns about Wildlife Services, 
former Animal and Damage Control Agency, and in particular in 
one urban interface area we have had now two incidents where 
these M, I think, 80's or whatever they are called, the cyanide 
shot shells that are attached to meat baits have been placed 
without proper signage. In fact, perhaps, in one case without 
the consent of the property owner, and in two cases dogs, pets 
have been killed and one woman whose dog had been killed and 
died very horribly came to one of my last town meetings.
    I made an inquiry on her behalf as to the facts regarding 
the matter because we think there is a particular problem 
employee, and was told to buzz off. File a FOIA if I want any 
information about what happened. I find that extraordinary. The 
Agency cited some sort of a precedent having to do with a case 
in Texas, and the last time I checked we are not in the Texas 
circuit. So, even if there is some sort of precedent or 
injunction pending in that circuit, it does not apply in ours, 
and I found that fairly extraordinary to get that sort of a 
response, and I will direct to the appropriate member of your 
staff the letter I sent and the response I got.
    The constituent is obviously distressed. I don't want to 
see another occurrence. It could be a child the next time, I 
mean, with this sort of a practice, and I am just very 
distressed about it.
    My time seems to be going very quickly, but if I could 
just, on the Roadless policy, we have a huge, huge backlog of 
deferred road maintenance in the Pacific Northwest, and I know 
that is common throughout the entire system. I am concerned, 
you know, I am supportive of the Roadless policy, as 
promulgated by the past Administration, and I am concerned 
that, I mean, one of the many problems that we are trying to 
deal with in promulgating the roadless policy in addition to 
the idea of the controversy and the environmental problems of 
entering roadless areas was to begin to deal with that backlog. 
Could anybody comment briefly on that issue, how your proposals 
or what you are doing with the roadless policy--
    Mr. Bosworth. Yes, I would be happy to comment on that.
    First, let me say that the backlog that you are talking 
about, in terms of our road maintenance, as well as facility 
maintenance, is about $6.8 billion, which is a lot of money. We 
are looking for a lot of ways to deal with that. I don't 
believe that the roadless issue really affects that one way or 
the other a whole lot. We are not going to be building new 
roads in the roadless areas without the Roadless Conservation 
Plan. Most of our Forest Plans, existing Forest Plans, do not 
call for a lot of road construction in at least half those 
roadless areas.
    So I don't really see myself that those things are really 
closely aligned. I believe, and I have heard the Secretary 
state a number of times, that we do want to protect roadless 
values. And so from my perspective, it is how you go about 
doing that in a way that is satisfactory to people, local 
people, as well as people across the country. And so in our 
effort to try to sort through this, we are trying to make sure 
that we are able to involve local people in a way that I don't 
believe they are involved in the original Roadless Conservation 
rule development.
    What we have done is we have gone out with an advanced 
notice of rulemaking, and we had like 10 questions or several 
questions that we asked the public to respond to, to give us 
some different ideas on how we might be able to deal with the 
roadless issue. We are evaluating those, doing the content 
analysis now, and so we are continuing to work on that.
    We have not built any roads into any roadless areas since 
the Roadless Rule was adopted, other than roads that would have 
been allowed for under the Roadless Conservation Rule anyway, 
and there is the Roads Working Group, a sort of a self-
appointed working group that we have been collaborating with 
that is also looking for ways to pull people together.
    Roadless areas are important, and we need to have a more 
collaborative approach to solving the issue rather than the 
kind of resolution that leaves some people on the outs and 
other people on the in. We have to find a way, a collaborative 
way, to resolve that problem.
    Mr. DeFazio. Thank you. Thank you, Mr. Chairman. I will 
follow up, Chief. I am curious because you did quantify saying 
half of the plans wouldn't permit, and I would just be, if you 
have a listing or breakdown, I would be curious on getting 
that.
    Mr. Bosworth. Yes, we can give you the numbers on the 
existing Forest Plans that were in place when the Roadless 
Conservation Rule was established on how those areas were 
designated to, they basically would not allow road 
construction.
    Mr. DeFazio. Thank you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 79342.002
    
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. McInnis. Chief, I might add I am pretty deeply 
concerned about what I have just heard from Mr. DeFazio in 
regards to a Freedom of Information demand made on a typical 
inquiry by a Congressman. Madam Secretary, maybe you have a 
comment there.
    When we talk about cooperation, it would seem to me that 
only as a last resort for some legal technicality would an 
employee of the Forest Service say to a Congressman go through 
the Freedom of Information Act. Madam Secretary, I think it is 
important enough for the whole Committee to hear this.
    Secretary Veneman. Mr. Chairman, I am very concerned about 
what was stated as well. Although if we are talking about 
Wildlife Management, this was probably not a Forest Service 
issue, this is an APHIS issue.
    My experience in California is that these programs are run 
in conjunction with the State. So we will look at this and 
determine what the problem was. Certainly, I would not condone 
this kind of behavior by employees either, if they are not 
cooperative, but we will want to look at who was actually 
involved in the incident, and we will do that. I commit that to 
you.
    Mr. McInnis. Mr. DeFazio, your staff and my staff, we both 
have had this experience on the lynx survey recently, where we 
asked for the investigator's report, and they just said, ``File 
Freedom of Information.'' I can't believe we work with the same 
Agency sometimes, work as partners, but I am confident in your 
leadership.
    Mr. Simpson?
    Mr. Simpson. Thank you, Mr. Chairman.
    Secretary Veneman, Chief Bosworth, and Under Secretary Rey, 
I appreciate you being here today. I want to associate myself 
with the comments of the Chairman about Forest Service 
employees. I think those in Idaho that I have been associated 
with and working with over the last few years, particularly 
when I was, me and my Chief of Staff went up on the Clear Creek 
fire in the Salmon-Challis Forest in the Year 2000, and really 
met Forest Service employees from all over the country that 
were there fighting this fire. I think they are dedicated 
employees that are doing a tremendous job. Obviously, there are 
sometimes exceptions to that, as was pointed out with the lynx 
study and a few other things like that, but on the whole I have 
been very impressed with the employees in the Forest Service, 
and I want you to know that.
    There have been some comments today about the 
Administration and their lack of environmental policy, and the 
lack of implementing the Road Rule and a few other things. The 
previous Administration developed the Roadless Rule, in 
cooperation with a few environmental groups, including the 
Heritage Forest campaign, the Wilderness Society, the National 
Resource Defense Council, U.S. PIRG, the Earth Justice Legal 
Defense Fund, the Audubon Society and the Sierra Club.
    These groups had continuous communications with and access 
to Federal employees that were directly involved in the 
creation of the rulemaking. This access was not only limited to 
meetings, but included providing draft language, legal 
memorandum and survey data to the Administration which was then 
used to justify and frame the Roadless Area Rule. What will be 
the current Administration's position on involving more people 
and trying to rectify this one-sided input that was done by the 
last Administration on development of this rule?
    Secretary Veneman. Well, I think we can clearly reiterate 
that it is our goal, with regard to managing public lands, and 
certainly our goal in the USDA and the Forest Service to 
involve local communities in local decisions, and we are 
looking at the Roadless Rule as part of the management planning 
process for the forests, and we are going to involve local 
input into those decisions. We think that is very important in 
whatever decision we are making, but certainly it is one that 
we think is an important process with regard to looking at the 
roadless areas.
    Mr. Simpson. Let me also reemphasize, as I did in my 
opening statement, that contrary to the advertisements and the 
commercials that have been on TV that seem to be taking after 
the Administration, that this Roadless Rule was gutted by a 
judge, not by the Bush Administration. A judge is the one who 
issued the injunction against the implementation of that 
Roadless Rule.
    I understand that has been appealed to the Ninth Circuit, 
that decision, and the judge in that case has not decided 
whether those appealing entities can actually be a party to 
appealing that suit, the environmental groups that appealed 
that because they were friends of the court when they were 
originally part of that suit.
    In spite of that, in spite of the fact that that is under 
appeal, and I just want to, and I say this for emphasis again, 
because I know that the Chief just answered that, how many 
commercial logging operations or trees have been sold or cut in 
the roadless areas since the Roadless Rule proposal was put 
into effect?
    Mr. Bosworth. Again, it is my understanding that there have 
been no roads constructed in any inventoried roadless area that 
would not have been allowed for under the Roadless Conservation 
Rule itself.
    Mr. Simpson. Thank you. There have been Members of Congress 
who have proposed codifying the Roadless Rule. Their argument 
is that the Administration won't implement it, won't defend it, 
and so they are going to codify it in statute. In your opinion, 
would this be a wise thing to do? Would it interfere with the 
progress being made by the Forest Roads Working Group in trying 
to come to some compromise on this Roadless Rule?
    Secretary Veneman. Well, I think it would do a couple of 
things. One is, obviously, the courts, a Federal judge has 
issued a preliminary injunction on this rule because, according 
to the judge's opinion, it didn't comply with NEPA. So, if you 
were to then codify something that was not in compliance, 
according to a judge, with NEPA, it could override NEPA, and I 
am not sure that is an intended consequence that the Congress 
would want to pursue.
    But I think it would also undermine the work of the working 
group. It is so much better to try to make these kinds of 
decisions by consensus of various interested parties, and I 
think in moving forward within ANPR on Roadless, as we have, 
moving forward to discuss the issue, as we have said, we want 
to maintain the value of Roadless. We want to do it in the 
right way, however.
    Mr. Simpson. I thank you for your testimony. I think most 
of us here on the Committee agree with you on the value of the 
roadless area and maintaining that unique important aspect of 
our forests.
    Thank you.
    Mr. McInnis. Mr. Udall?
    Mr. Udall of Colorado. Thank you, Mr. Chairman.
    I want to also welcome the panel, and thank you for taking 
the time to come up to the Hill today.
    Madam Secretary, I note that the purpose of the hearing was 
the future of the Forest Service, but we are certainly talking 
quite a bit about present-day challenges we face, and I wanted 
to direct my comments and questions, in particular, to the 
wildfire danger we face in the West. Chairman McInnis 
articulately talked about the challenges we face there.
    He has been working, in his own right, on some important 
aspects of coordination among the agencies. My colleague, and 
he also happens to be my cousin, Mr. Udall from New Mexico, and 
Congressman Hefley joined together in a letter to you earlier--
I guess today is the 1st of May, so earlier in April--
encouraging you to really focus on the Wildland-Urban Interface 
or what we call in Colorado the Red Zone.
    I wonder if you have had a chance to review the letter, and 
if you have any reactions to it?
    Secretary Veneman. I have to say I am not familiar with 
that particular letter.
    Mr. Udall of Colorado. It is not as if you just get a 
couple of letters every day, so I understand.
    Secretary Veneman. No, we get quite a few.
    Mr. Udall of Colorado. Same in our office.
    Let me build on my comments about the Red Zone. I just 
wanted to make an appeal to you and to the Chief that we do all 
we can to lessen the controversies that could lead to appeals 
or litigation and end up slowing down the progress we could 
make. I think, in part, if we concentrate on these areas that 
are eroded, where we have this interface, we can do the job 
that needs to be done, particularly when it comes to the risk 
to human life and human property.
    Secretary Veneman. Well, I couldn't agree with you more. I 
think that it is extremely important that we look at the areas 
where human life and property are most at risk, as we look at 
actively and proactively managing the forests, as we have 
talked about. We are certainly committed to do that, and the 
Forest Service has been engaged in looking at all of the areas 
that are in need of more proactive management, particularly 
with regard to brush removal, so that the risk of wildfire is 
lessened and that people are protected.
    Mr. Udall of Colorado. The Interagency Council, what do you 
have in mind for the council, particularly in regard to this 
Red Zone situation that we are discussing right now?
    Mr. Rey. One of the things that the council will be 
involved in is selecting priority areas for treatment. So that 
was part of the reason to form the council, to make sure that 
where we have mixed ownerships, both Interior and Agriculture, 
that we are coordinating our fuel reduction efforts.
    Mr. Udall of Colorado. Mr. Under Secretary, this may not be 
accurate, but I had run across a quote attributed to you where 
you had said logging is the best thing for the environment in 
fire-suppressed forests. I wanted to give you a chance to 
comment on that.
    But, before I let you comment, I want to make just the 
point that I think that raises, for a lot of people, a red 
flag, and that what we are really trying to do, and I think 
Congressman DeFazio spoke eloquently to the point, is reduce 
fuel loads. In many cases, the fuel loads are small-diameter 
trees, brush, and those other kinds of materials.
    I would further add that I think we have enormous 
opportunity to create some new rural economies with biomass and 
alternative wood products. I am very, very supportive of that 
as the co-chair of the Energy Efficiency and Renewable Energy 
Caucus in the House. There are a lot of people excited about 
this possibility if we can help create these markets in these 
rural areas.
    Would you comment about that general thrust, and then this 
comment that has been attributed to you.
    Mr. Rey. The comment was, I think, incomplete. There are a 
number of tools which, in combination, we need to use to reduce 
hazardous fuel loads. One of those is prescribed burning. Some 
places we can't use prescribed burning, either because of air 
quality concerns or because the fuel loads are so high that 
controlled burning isn't possible.
    Mechanical reduction, through either logging contracts, if 
there is material of commercial value there, or through service 
contracts, if the material isn't of commercial value, are also 
useful tools.
    Neither of them is magical in any particular respect. Where 
we do have commercial material there, there is something of 
value that we can exchange for the service that we are getting, 
and that means that we can extend our dollars a little further.
    But I think it is important for people to appreciate that 
the magnitude of the effort before us is so great that we ought 
to try to speak to one another directly, and honestly, and not 
worry that there is a hidden motivation behind what we are 
doing. I think we have been pretty forthright in saying we 
believe that there is a role for the national forests in the 
production of some measure of wood fiber to meet America's 
needs.
    The level is something that needs to be worked out on a 
case-by-case basis. There is no number anywhere that we are 
striving for. So, given that we are up-front about that, I 
would hope that when we do approach, together with our 
counterparts at the Department of Interior, State and local 
agencies, the fuel reduction problem, we can do so honestly. We 
are not trying to reduce fuels to create logs to put into 
sawmills. We are trying to reduce fuels as fast as we can, 
using as many tools as we can, before more people are put at 
risk from wildlife.
    Mr. Udall of Colorado. Mr. Chairman, I see my time has 
expired, but I know Mr. McInnis and I are really concerned that 
we direct these efforts into these areas in the Red Zone, where 
people and property exist. In the end, we want fire to be 
returned to the forest because it is a natural part of the 
ecosystems, but if we were to see that fire develop in a lot of 
the forests now, it becomes catastrophic.
    I thank the Chairman.
    Mr. McInnis. Mr. Walden?
    Mr. Walden. Thank you very much, Mr. Chairman.
    Madam Secretary, Chief, Mr. Under Secretary, thank you 
again for your work and your comments.
    My first question, obviously, goes to the Klamath Falls 
situation, and given the funding in the farm bill, I would be 
appreciate to know what it is, Madam Secretary, you think you 
can do to help. We had hoped to get more earmarked funds. We 
succeeded because of Chairman Combest and Chairman Hansen in 
getting $50 million specifically earmarked, but there are 
hundreds of millions of dollars there.
    My second question would involve the Medford Tanker Base 
and to get on the record an assurance that if certain things 
are done that, indeed, we can keep that base open. Chief, I 
know you are familiar with that.
    And then I just have to ask about the low timber yields and 
some stewardship contracting issues as well. As you know, in 
the farm bill, we had hoped to be able to expand the use of 
stewardship contracting. It was the Senate conferees on the 
other side of the aisle that ``nuked'' that provision.
    I would be curious to know about your views on stewardship 
contracting as it relates to the forests. Certainly, in my 
district, Mr. Rey, you were out there in John Day. I remember 
reading a report about the sustained yield in the Malheur was 
somewhere on the order of 200 million board feet a while back 
that was projected. Last year, they hit 10 percent of the 
projected 38 million board feet, 10 percent of that is all they 
got out. If you calculate that out, just to put in perspective 
what has changed in a rural area, we are down to less than 2 
percent of where they were a couple of decades or a decade ago 
or so in what they are able to access.
    The point I would get at, because Mr. Udall sort of raised 
this issue to a certain extent, and I am one of the co-chairs 
as well and very supportive of biomass and all, but I am 
continuing to hear, Chief, from my regional foresters that they 
are very concerned that we are losing the remaining 
infrastructure, in terms of mills, loggers and such, to be able 
to do the kind of stewardship contracting, to do the kind of 
work that has to be done, whether you call it logging or 
thinning or just trying to make our forests more healthy.
    So I will stop with that and then just flag one other 
agriculture-related issue, and that is Sudden Oak Death, which 
is afflicting our nursery business. It is a big scare in the 
area, and we may need some help getting some funding to deal 
with that. So I know that is a rapid-fire progression, but we 
don't get much time to ask questions.
    Secretary Veneman. I think you are going to win the prize 
for the most questions in the shortest amount of time.
    [Laughter.]
    Mr. Walden. Thank you, Madam Secretary. I try to make the 
best use of my opportunity here.
    Secretary Veneman. Let me answer some of them, and then I 
will turn others over to my colleagues. Let me start first with 
the Klamath Basin.
    As you know, I was out there recently with Secretary Norton 
as we turned on the irrigation water for this year for the 
farmers and ranchers in that area, and we were very pleased 
that Mother Nature cooperated this year enough so that we were 
able to do that.
    I will also say that that trip gave me a very good feel for 
the issues in the region, for the layout, for the kinds of 
competing demands that is only possible with a firsthand look, 
and so I was very thankful for that opportunity.
    As you also know, the President, after he visited Oregon 
with you and Senator Smith, did form a Cabinet-level task force 
to oversee the issues of the Klamath Basin. I am a member of 
that task force. It is chaired by Secretary Norton, and we are 
working very diligently to look at all of the options. There 
are many competing interests, not just farmers and fish, but 
there are tribes. There are national forests involved. There is 
obviously the Bureau of Reclamation. There are numerous areas 
that are involved in this issue, and that is why it is so 
important that we have this cooperating task force that 
includes, at the Cabinet level, myself, Secretary Norton, and 
Secretary Evans.
    We haven't seen the final details of the farm bill, but I 
can tell you that we certainly appreciate your efforts to try 
to get specific, to get specific amounts of or designations in 
the farm bill to deal with the Klamath issues, and we will work 
with you and other members of the delegation in Northern 
California and Oregon to try to utilize the resources that have 
been given both in the farm bill and that we have through other 
programs to do as much as we can for the Klamath area.
    Mr. Walden. You, clearly, and I know the President 
understands, this has got to be one of the major priorities of 
this country because if we can't fix it in the Klamath Basin, 
we are not going to be able to fix it anywhere. I mean, are you 
willing to make this, and do you think the President's 
committee will make this a No. 1 priority when it comes to 
accessing the billions that are now available in the farm bill 
once we pass it for conservation and water--
    Secretary Veneman. Yes. I mean, this will certainly be a 
priority. I mean, we have got, as I indicated, the President 
has established a Cabinet-level task force, and we will be 
looking at this as a priority as we look at the issues in the 
farm bill. Again, it is very difficult to commit specific 
resources because we have not seen the details.
    Mr. Walden. I understand that.
    Secretary Veneman. But, certainly, I will commit to making 
this a priority and say to you that it already is a priority 
for this Administration to deal with this issue.
    Mr. Walden. I appreciate that. Thank you.
    Secretary Veneman. Let me also make another comment on the 
farm bill because you raised the issue of the Forest 
Stewardship program. We are also disappointed that that was not 
included. As I indicated, however, this is a farm bill that has 
the largest amount of spending for conservation ever in a farm 
bill before, and we are pleased about that, but there are 
things like this program that were not included that could have 
been a very important program, in terms of overall fuel 
reduction, for example, as we were talking about earlier.
    This is a farm bill of compromise. It is a farm bill where 
not everyone got what they wanted, and certainly this is one of 
the programs I think we would have both liked to have seen, but 
unfortunately it was not included.
    I do want to comment on the alternative uses in the 
biomass, which was also asked in the previous question. As I 
indicated in my opening statement, I was able to visit just 
last week, on the occasion of Earth Day, our Forest Research 
Lab that is looking at a number of these opportunities for 
forest products, particularly some of the smaller cuts, some of 
the recycled uses. Biomass is another important renewable 
energy resource that we have from the forest. We are also 
looking at a number of agricultural uses with regard to 
biomass. It is a priority. It is a priority that we have 
placed, in terms of in the Administration, not only in our 
energy plan, to look at the renewable sources, and biomass is 
one of those, renewable fuels as well, and also these new and 
innovative discoveries.
    And I would commend to this Committee anyone who has the 
opportunity to visit this Forest Products Lab and see the 
innovations that they are making with regard to new uses for 
forest products there in Wisconsin. It is very interesting, and 
I think it would give everyone a good opportunity to see what 
technology can do to help us in these areas.
    Mr. Walden. I would also, Madam Secretary, commend you to 
the Oregon Institute of Technology Renewable Energy Center as 
well because they are doing some impressive work on geothermal, 
and solar, and other fuel-cell development as well down in 
Klamath Falls. Next time you are down, maybe we will get you 
there.
    Secretary Veneman. I would very much enjoy visiting that.
    We are sensitive to the point you made, also, about losing 
the infrastructure that support the forests. Certainly, that is 
an issue that I think needs to be addressed as we work with 
local communities and get local input. This needs to be put 
into the mix of that discussion.
    And, finally, what we do have is a focus on Sudden Oak 
Death syndrome. It is a big issue, also, in California, and we 
are working with a number of members there as well.
    I would like to turn it over to the Chief to talk a bit 
about the Medford issue and the logging issue.
    Mr. McInnis. Let me add we have gone over our time 
considerably here, and we do want to give the other members 
time. So, if the Chief would visit with the representative 
after the meeting in further response to this question.
    Mr. Udall?
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    Secretary Veneman and company here, I wanted to address 
this issue of focusing and targeting National Fire Plan monies 
specifically to the Urban-Wildland Interface, and it seems to 
me, as I have watched this unfold, that we seem to have such a 
broad definition or such an expansive view of what the 
Wildland-Urban Interface is, is that we are doing a lot of 
reduction in back-country areas, we are doing a lot of 
reduction in areas that don't need it, and in my opinion, we 
really need to target very specifically what is Wildland-Urban 
Interface.
    And on April 11th, I wrote you about the legislation that 
Congressman Hefley and my cousin, Congressman Udall, had 
introduced, and in that legislation we take what the GAO has 
done and try to urge you and your counsel to very specifically 
define Urban-Wildland Interface. And specifically there we talk 
about a definition. This is a definition that is used in the 
Rocky Mountain area, where we would talk about, first, homes 
and other structures that are immediately adjacent to or 
intermixed with Federal-public lands containing flammable 
vegetation; two, that the conditions on such lands are 
conducive to large-scale disturbance events; and, three, that 
there is a significant probability of a fire ignition and a 
resulting spread of the disturbance event.
    It seems that definitions are being used all over the 
country. If you read through the GAO report, you see California 
has one definition, and then the Rocky Mountain area has one. I 
would urge you, I think, to get this focused, you, and the 
Chief, and the Under Secretary. It may well be, from your 
level, to try to define what it is we are talking about so that 
we can spend these monies in an effective way. We can measure 
what it is that we are getting, in terms of spending money, and 
so we do not reach the situation where we get to the end of 
this, and everybody says, well, the National Fire Plan is a 
failure.
    I mean, that is what I really fear, being a Westerner, is 
that we know that an incredible amount of work needs to be 
done, and if we don't do it well early on, the support out 
there will disappear for continuing the National Fire Plan and 
specifically trying to address these high-risk communities.
    With that, I would love to hear from you or either of the 
two individuals you have with you.
    Secretary Veneman. Well, I think you bring up very 
important points, and part of the reason that Secretary Norton 
and I together signed this agreement, establishing this 
Wildfire Council just--well, it is May 1st--last month, was to 
address these kinds of issues, to look at how do we best create 
the definitions, how do we set the priorities, in terms of 
where we need to first put the resources, and certainly the 
Urban Interface is one that is very important and needs to be 
addressed.
    Mr. Rey I think indicated earlier that the council is going 
to be meeting just this afternoon, and some of the definitional 
issues are things that this council will be addressing.
    Do you want to comment on that further?
    Mr. Rey. I think that is pretty much it.
    Mr. Bosworth. I would like to just make one comment, 
though, about the Wildland-Urban Interface areas. One of the 
things I think we have to be very, very careful of is to not 
assume that a Wildland-Urban Interface situation in California 
is the same as it is in Georgia or is the same as it is in 
Wisconsin. We have to look at the local situation. Fire behaves 
differently in those different circumstances. The fuel loads 
are different. The kind of treatments that it takes to deal 
with those fuels are different.
    I think that we need to keep our focus on protecting 
communities and recognizing that, of course, those are the 
higher cost areas to treat as well. We have got to keep our 
focus on the communities, but be very cautious about one 
definition that would cross everyplace in the country, and that 
may not work. We just need to make sure we think that through 
very, very carefully.
    Mr. Udall of New Mexico. Chief, do you have any, in hearing 
me read this definition that I think is used in the Rocky 
Mountain area, the last two conditions on such lands that are 
conducive to large-scale disturbance and events, there is a 
significant probability of fire ignition and resulting spread 
of the disturbance event. It seems to me that that kind of 
definition is something that could apply all across the board 
because what we are looking at is large-scale devastation. That 
is what we don't want, and we need to be targeting the monies 
to those areas that are at the highest risk. Isn't that where 
we should be headed?
    Mr. McInnis. Gentlemen, I hate to interrupt--I am sorry, 
Mr. Udall, but I have got five other people and 20 minutes to 
give them an opportunity to question.
    Mr. Udall of New Mexico. Would you just let him just give a 
brief answer, Mr. Chairman?
    Mr. McInnis. No.
    Mr. Udall of New Mexico. He is a very concise gentleman.
    Mr. McInnis. I am turning the floor over to Mr. Peterson. 
Mr. Peterson needs to leave. It is either give you more time 
and cut these guys short, and they outnumber you five to one, 
so you are outnumbered.
    Mr. Udall of New Mexico. I will come back.
    Mr. McInnis. Mr. Peterson, you may proceed.
    Mr. Peterson. Thank you very much.
    I want to welcome you, Madam Secretary, and Chief, and Mr. 
Rey, for joining us today. You have difficult jobs, a lot more 
difficult than a lot of people think.
    I would like to just begin by saying I come from Northern 
Pennsylvania, the finest hardwood forest in America. I grew up 
in the forest. When I was a youngster, I slept in the forest, 
you can ask my mother, more often than I slept in my house in 
the summertime, and I grew up alongside of oil wells because I 
was from the original oil patch near Drake Well. So we had oil 
activity, we had timber activity, and it is a beautiful forest 
today because we managed it. Most people managed it well.
    But I guess I would like to comment just for a moment about 
the ranking member's comments, when he hit you with 10 issues 
that he thinks this Administration has failed on. It is my view 
that you had somewhat stopped policies that were not well 
thought out, policies that were from the radical left, policies 
that had devastating impacts on the economies of rural America. 
And so by slowing them down and allowing public input, in my 
view, you have proven that you really are interested in the 
environment because, in my view, the Vice President's office 
should never have managed the Forest Service, and in my view, 
they tried to.
    Is it not true that today we market 84-percent less timber 
than we used to on an annual basis?
    Secretary Veneman. It depends upon the timeframe in which 
you are talking about, but we are marketing substantially less 
timber.
    Mr. Peterson. It is less than 2 billion board feet, it used 
to be 12 billion per year, that is the figure I am going on, 
and we have never met our mark yet. So it is going to be less 
than 84 percent from what we used to.
    But I think we have to realize that those who are against 
marketing timber want it zero. They want all public land to be 
for the critters, not for people, because, in my view, when you 
look at the roadless areas, I would doubt that a quarter of a 
million Americans would spend quality time in a roadless area 
out of our vast population. People don't go.
    I am an avid hunter. Avid hunters don't go a mile from a 
road, the majority of them. They just don't. The few young that 
understand the forest and are not afraid of getting lost. When 
you go roadless, you go peopleless. So not only does timber and 
other activity stop, recreation stops for most of Americans, 
and I think that is a debate that has not been had and, in my 
view, is a part of this process, that when you make an area 
roadless, you make it peopleless because people won't go there. 
They just don't.
    I guess I wanted to make the point that, in the Forest 
Service, as you manage the forests, you have range biologists, 
you have soil scientists, you have hydrologists, you have fish 
biologists, you have wildlife biologists, environmental 
engineers, insect and disease scientists, and foresters, 
botanists, civil engineers, economists and social scientists 
that help you make your decisions; is that a correct statement?
    I don't think the public gives you credit for that. I don't 
know of any agency that brings in that many highly educated 
professionals to analyze every decision you make, whether it is 
a timber cut, whether it is a trail building or any activity 
that you are going to allow in the forest, those people 
interact, am I not correct?
    Secretary Veneman. That is correct.
    Mr. Peterson. And so I guess my message is we talk about 
analysis paralysis. You know, if I was a businessperson, and I 
have been, previous to being here, and I had that kind of 
scientists backing me up, I would be less timid defending what 
I am doing than the Department of Agriculture and the Forest 
Service has been in the last few years, and that is the 
situation you have inherited.
    But I mean you have a lot of very well-educated 
professionals helping you make every decision, people who worry 
about fish biology, people who worry about wildlife biology, 
people who worry about soil scientists, hydrologists. All of 
those professionals are a part of your decisionmaking process, 
and I don't think you get any credit for that or take any 
credit for that.
    Would any of you like to respond to that?
    Secretary Veneman. Congressman, I think that is a very 
important point. We do have a very diverse cadre of 
professionals in the Forest Service that help with all of the 
determinations we make with planning, with determining how we 
are going to manage the forests, and they are a very important 
part of what we do.
    I think part of your comments also go to what we have 
referred to as the analysis paralysis, the difficulty in 
getting decisions made. As we have indicated on numerous 
occasions, so much of what we do ends up in the court system. 
That has been a real problem, and we are looking through what 
the Chief, through his leadership, he is looking at a report on 
what is it that is holding up decisions and the decisionmaking 
process, and then he wants--
    Mr. McInnis. Madam Secretary, I am sorry to interrupt, but, 
members, we have got to keep it within the time limits. We have 
exceeded that time limit, and, Mr. Peterson, as you know, you 
were granted the courtesy by these other two to jump ahead, 
so--
    Mr. Peterson. Thank you very much.
    Mr. McInnis. Thank you.
    I am sorry, Madam Secretary. I know you are trying to get 
out by noon as well.
    So, Mr. Norwood, thank you for allowing us to jump--
    Mr. Norwood. Thank you, Mr. Chairman and members of the 
Committee, for allowing me to come and ask a couple of 
questions today. My inclination is to defend the political 
attack that occurred earlier today, and I am not going to do 
that, but I would say to you, Madam Secretary, that there are 
many, many, many Americans who have increased trust in this 
Administration and are very pleased with the balanced, common-
sense, fair approach that our President is taking. Just because 
it doesn't agree with somebody, it doesn't mean a lot of us 
aren't real happy with it.
    I want to associate my thoughts with the Chairman's opening 
statement and with yours, Madam Secretary. I couldn't agree 
more, and there have been so many important questions, I hope I 
am not going to trivialize this, but please do understand my 
questions are based on that I am trying to stop a war. All of 
us are getting new districts, and I am lucky enough to get 
seven new counties in North Georgia, the most beautiful 
mountains in the world, and the interesting part of it is that 
50 percent of that land mass is the Chattahoochee-Oconee 
National Forest. So the people who have lived in those 
mountains for years, and years, and years, have a great 
interest in what your supervisors do in that area.
    My first question, and please quickly answer, is who does a 
supervisor answer to?
    Mr. Bosworth. The forest supervisor reports to a regional 
forester, and in that case it would be a person by the name of 
Bob Jacobs, who is in Atlanta, Georgia.
    Mr. Norwood. Well, I am going to come talk to you later, 
and we will get into real details, but finally it kicks up to 
you, doesn't it, Chief?
    Mr. Bosworth. And he reports to me.
    Mr. Norwood. Now the Secretary said that it was very 
important that we have strong ties to local communities. The 
Secretary said we have to involve local communities in local 
decisions. Frankly, my question is does that mean the local 
community gets to put in their point of view, and everybody 
listens, and then the supervisor does what they want or does it 
mean it really does have an effect on the decision?
    Mr. Bosworth. The reason for working with both local 
communities, as well as people outside of the local 
communities, the region and people that are in some of the 
cities that have an interest in the national forest is to try 
to arrive at decisions, based upon their input and others 
input, decisions that will work on the land, that will be--
    Mr. Norwood. Here is the deal, and the reason this is 
important is I am trying to stop a war in a district I am not 
even in yet. I want to know what the policy is of the Forest 
Service when it comes to ATVs. Can you use an ATV on a forest 
road or not?
    Mr. Bosworth. That would depend on the individual Forest 
Plan. So there is a Forest Plan for the Chattahoochee-Oconee 
National Forest, and the Forest Plan sets out, and every 
national forest has a Forest Plan, that sets out the direction 
for what can and can't take place.
    Mr. Norwood. So, in some parts of America, you can ride 
down the road on an ATV and other parts you can't. It all 
belongs to us.
    Mr. Bosworth. There are some places that there would be 
some restrictions for ATVs, partly from a safety standpoint. 
There may be places where you have the potential for faster 
vehicles going down the road, and you have, say, an ATV that 
there is the potential for accidents and for--
    Mr. Norwood. Well, there are potentials for accidents on 
interstate highways, too, but we don't prohibit cars. And Clara 
Johnson, the supervisor down there, is trying to prohibit ATVs, 
and it is going to start a war, and I want to know how to stop 
it.
    First of all, I don't appreciate her trying to take ATVs 
off the road. I don't think they ought to get off the road into 
the forests, but this is land owned by the people, and many of 
my people like to go trout fishing, maybe some of them even 
like to go bird watching, some of them may want to go turkey 
hunting, some of them are not old enough to climb the 
mountains, but could get up there and enjoy their land, and I 
want to know what do we need to do to have some local input 
that will be meaningful.
    Mr. Bosworth. I need to talk with the regional forester and 
the forest supervisor on that particular situation because, 
again, ATVs are a part of the National Forest recreation 
opportunities around the country.
    Mr. Norwood. That is right.
    Mr. Bosworth. Like any other use, we try to work together 
with local people, as well as others, to try to figure out how 
we can do that in a compatible way to satisfy as many people's 
desires as possible. I can't speak specifically to the 
situation you are talking about, but I can certainly check into 
it and get back to you.
    Mr. Norwood. And I want to talk to you specifically about 
it outside of this hearing room because you and I have to 
divert a war.
    Mr. Bosworth. Well, I don't want any wars over national 
forest lands.
    Mr. Norwood. I don't think you do either, and I don't want 
one in my new district, but I am telling you, I know those 
mountaineers up there, I do know that, and I also know that as 
good of employees as you have, everybody agrees with that in 
this room, some of them are political appointees.
    Mr. Walden. Gentlemen.
    Mr. Norwood. My time is expired. I thank the Chairman, and 
I thank the Chief, Madam Secretary.
    Mr. Bosworth. Excuse me. I just want to correct that. Our 
forest supervisors are not political appointees, our deputy 
Chiefs, I am not a political appointee.
    Mr. Norwood. I will show you how it happens when we meet.
    [Laughter.]
    Mr. Walden. Thank the gentleman. We want to avoid war in 
this Committee room too.
    Let us go to Mr. Gilchrest now for 5 minutes.
    Mr. Gilchrest. I thank the Chairman.
    I had a solution for Charlie's ATV problem. I think that 
people down there should just use horses.
    [Laughter.]
    Mr. Gilchrest. Enjoy the wilderness a little bit better. It 
is a lot more quiet, and a lot of different birds eat that 
dung. It is good for the ecosystem.
    I want to, Chief, I just want to tell you that my daughter 
is ecstatic. She has a student job in one of your forests for 
the summer.
    Mr. Bosworth. That is great. She will love it.
    Mr. Gilchrest. I don't want to say in public where. It is 
near Butch. It is a great spot.
    Madam Secretary, thank you for coming today. We do, and I 
want to confirm the fact that when you became Secretary of the 
Forest Service, people feel a lot more comfortable, and they 
feel secure with your pragmatic, reasonable, visionary approach 
to both agriculture and the forestlands.
    I come from back East--that is an unusual thing for this 
Committee--not too far from here, just a stone's throw away on 
the Chesapeake Bay. I live on a peninsula called the Delmarva 
Peninsula, Delaware, Maryland, and Virginia, and we have 
predominant industry there is agriculture and fishing. There 
are also some conflicts on agriculture, silviculture and the 
fisheries because of habitat reasons and so forth.
    We have, in the farm bill, and I hope to God it passes 
tomorrow, a pilot project in the conservation title. I think it 
is 203, letter G, called the Conservation Corridor, and it will 
bring together the five key areas that you have described, in 
my opinion, by making agriculture unique, value added, 
profitable so farmers will have the option to stay in farming 
because they can or to sell their land. Right now it is 
becoming clear they can't. They only have one option, and that 
is to sell their land if they want to keep their house or send 
their children to college.
    The other part of that bill, and that is a contiguous 
corridor of agriculture, the other part of that bill is a 
Conservation Corridor. That is, for the most part, a forested 
corridor. We don't have a lot of national forests on the 
Delmarva Peninsula, but the Department of Agriculture can go a 
long way into helping create this Conservation Corridor by the 
ideas that we have in the three-State area to make agriculture 
profitable. Create a Conservation Corridor, mostly a forested 
corridor, that fundamentally follows the hydrologic cycle. By 
doing that, you reduce conflicts between agriculture, the 
fisheries, forest practices, wildlife habitat and clean water. 
We think it is a fundamentally sound approach. It is a pilot 
project that will last 5 years--in 3 years, mix to see whether 
or not it is successful will be reported to Congress. It is a 
totally voluntary program. Anyone that participates or decides 
halfway through their participation can back out without any 
repercussions.
    It brings basically the myriad of agricultural programs 
that are out there mostly in the conservation arena, which are 
very often fragmented. One county doesn't know what another 
county is doing, let alone one State to another State, but we 
have a region that will take advantage of the vast array of 
resources and expertise that Mr. Peterson mentioned to bring to 
bear in this one region.
    If you look at the Delmarva Peninsula, perhaps it is like a 
heart or an organism, and it has veins and arteries that 
proliferate that particular watershed, and that is the area 
that we are looking for the Conservation Corridor. So I just 
wanted to bring that to your attention, and I hope we can meet 
shortly after the farm bill is passed and pull all of this 
together.
    Secretary Veneman. Well, we will look forward to working 
with you on that. I am not familiar with that particular 
provision. However, this sounds very much like our Conservation 
Reserve Enhancement programs, where we have been very 
successful in working with States, in particular watersheds, to 
build corridors of planting and so forth to enhance water 
quality, to keep people in farming, and to overall enhance the 
environment, and I think these kinds of programs are extremely 
successful. They are the kind of programs we have talked a lot 
about as we have discussed the importance of having 
conservation programs that help with working farmlands, that 
keep farmers in business, and so we will look very much forward 
to working with you on this project.
    Mr. Gilchrest. Thank you, Madam Secretary.
    Mr. Walden. Now we would like to recognize the gentleman 
from Idaho, Mr. Otter, for 5 minutes.
    Mr. Otter. Thank you very much, Mr. Chairman.
    Mr. Under Secretary, Madam Secretary, and Chief, thanks for 
being here. Once again, it has been a great experience, 
educational, as well as very informative.
    Chief, I understand the process that we are going through 
now to review the actions of those folks that were involved in 
the Canadian lynx study, and I don't want to belabor that, but 
I would like to make a point. In the process of answering 
questions, Madam Secretary said that the individual involved 
was retired. Now my understanding is that was the person that 
actually came forward with the truth and said that, in fact, 
they had falsified that study, and he had retired.
    I don't want to belabor the point, but I do want to make 
this point; that during the Clinton years, 38 lumber mills were 
shut down in my State, and all of those folks didn't get a 
chance to retire. They lost their jobs, and they lost their 
benefit programs, and eventually, in many, many cases, their 
family had to uproot generations of living in a particular 
locale and move someplace else because the economic vitality, 
with the closure of the forests and with the closure of those 
mills, was no longer possible.
    And so while we might celebrate the fact that we have, 
indeed, gotten rid of somebody who was a problem in terms of 
true science and using true science to drive our good 
intentions, I just want to remind you that those individuals 
will probably all have their retirement, they'll have their 
continuing Government package of medical benefits, and for the 
most part their families are going to remain intact with their 
generational roots. I wish I could say the same about in excess 
of 8,000 Idahoans who are not in their locales and in the 
pleasant circumstances under which a Government employee 
retiree might be.
    During the process of your opening statement, Madam 
Secretary, you mentioned the existence of some advisory groups 
that were actually a compilation of all of the driving forces 
within a community, the stakeholders, and trying to come up 
with a plan, trying to come up with a process which they could 
all agree to and go forward with.
    How much authority do these people have? Is this simply 
advisory? I guess my question goes back to the gentleman from 
Georgia, that after these 65 advisory groups complete their 
work, are they going to get to celebrate probably the beginning 
of a new idea about managing the resources which they all had a 
say-so in and eventually all agreed to? Is there any authority 
attached to this process?
    Secretary Veneman. Well, let me first say how much value we 
put on this local input from local communities in making these 
decisions, again. I am going to ask Mr. Rey to comment 
specifically on these advisory committees.
    Mr. Rey. These are committees that were charted under the 
Secure Rural Schools and Communities bill that passed in the 
last Congress. They have the responsibility of improving and 
approving investments in projects on the national forests, and 
they have, in the aggregate, about $25 million of money 
available for that purpose. So, yes, they do have specific 
authorities.
    Mr. Otter. And when the plan is finished, when they can 
come together and work things out, this then has some 
authority, this has some resolve for implementation?
    Mr. Rey. Some of the advisory committees have already 
approved plans that are being implemented with the funding 
available. In addition to the funding that is available through 
the bill, which is a mandatory expenditure, some of them are 
also matching the Federal funds with State and local Government 
funds.
    It is our hope that these committees will, over time, even 
take a somewhat broader role in providing assistance and advice 
to the Forest Service. They are balanced committees by statute.
    Mr. Otter. Before my time runs out, Chief, I wanted to 
mention a couple of names to you. I just met with Brad Powell 
yesterday. He came in my office and introduced himself. I am 
quite encouraged by his appointment to District One, and by 
Jack Troyer in District Four. That is a good signal for getting 
folks that truly understand the resource, rather than having 
political agendas, back on the ground and back actually 
operating the resource.
    So thank you very much.
    Mr. Walden. The time of the gentleman has expired.
    We go to the gentleman from California, Mr. Radanovich?
    Mr. Radanovich. I thank the esteemed Chairman.
    Welcome, Secretary Veneman. It is good to see you here. I 
was just thinking a little bit earlier you might be a 
constituent of mine with the California reapportionment. If 
that is the case, it is an honor.
    Secretary Veneman. We are close.
    Mr. Radanovich. I do want to thank the Administration's 
balanced approach. I know that the issue of balancing 
preservation with multiple uses is a tough one. Despite what 
was said here today, I want to state that, as one who is an 
advocate of increased multiple use, I share my frustration in 
not getting what I want as fast as I want.
    A case in point would be the Sierra Nevada Forest Plan 
amendment that was recently adopted. I am disappointed that it 
was adopted, and I do have some questions referring to that, 
but I also understand your necessity to recuse yourself from 
the issue and perhaps might want to direct this, it is your 
call, to Mr. Rey.
    But I am kind of withholding judgment until the regional 
forester develops an action plan to execute Chief Bosworth's 
directive and would like to state on the record that my 
understanding of what might be accomplished in that. One would 
be to reexamine the framework to find ways to continue to lower 
the risk of catastrophic fire, while providing and protecting 
resources; No. 2 would be better coordinate the framework with 
the priorities of the Herger-Feinstein Quincy Library Group 
Act; and No. 3, to better assess the impacts on recreation and 
grazing communities this plan amendment might have.
    What is the time line, if you have got any comments as to 
whether I am correct or not, on what is going to be researched, 
but also what might be the time line that we might see 
something come back that we can take a look at?
    Mr. Bosworth. We set out to accomplish that in 1 year. I 
can't remember the date that it started from, but when I issued 
my decision, we were expecting to have this review completed in 
the region in a year. You are pretty close, I think, on your 
understanding in terms of the direction that I gave. The 
regional forester has developed a plan. He has a team in place. 
I believe they have broadened it somewhat to take a look at a 
couple of other aspects, but they are going to work with 
interested people and evaluate that and make the appropriate 
changes.
    Mr. Radanovich. Will you be consulting with Members of 
Congress and related agencies, local Governments, tribes, 
environmental groups, as you begin to go through this process?
    Mr. Bosworth. Particularly the regional forester will be 
doing that, and then I will, to some degree, as needed. Yes, we 
will be dealing with local communities, already are, with 
interest groups on all sides of the issue, I believe that with 
many of the congressional staff. So, yes, it is going to 
require a lot of public interaction, and comment, and 
involvement.
    Mr. Radanovich. Chief Bosworth, do we have an idea of when 
that year is up?
    Mr. Bosworth. I will have to get the date. I am not 
recalling quickly.
    Mr. Rey. I think it is December of this year.
    Mr. Radanovich. December of this year? Good. I look forward 
to that.
    Mr. Bosworth. This last year has all run together for me. I 
can't remember when I did what.
    Mr. Radanovich. Thank you.
    The only other thing I want to mention, since the hearing 
is regarding the future of the United States Forest Service, I 
want to hold up for the cameras a chart that I came across just 
recently, which was very alarming, and it speaks a lot, in and 
of itself, and it is a little bit dim on this side. It is hard 
to see. But this is a chart that charts the number of acres 
burned in the inter mountain region due to forest fire from the 
1930's up to present time. I think it is 2001, from 100,000 
acres to a million acres. I noticed the dramatic increase since 
what looks to be like 1987, from 2001, the dramatic spike in 
number of acres burned.
    I think that while we are trying to assess the future of 
the United States Forest Service and their management practices 
on public land, I would think that one of the questions you 
might want to ask is why are we burning six to ten times more 
forests every year than we have in the last 70 years. I would 
like to provide this to you as evidence that we might want to 
take a second look at our forest management policies.
    With that, no required comment, and if you would like to, 
that would be just fine, but I thought it was an interesting 
thing to point out for the hearing.
    Secretary Veneman. Well, I think that, certainly, we are 
looking at the whole area of wildfire management, as we have 
indicated, through our partnerships with Interior, with our 
whole Fire Management Plan, and the committee that is going to 
meet this afternoon of the USDA and the Interior Department, 
the various agencies that are involved, to look at these 
issues. I think, certainly, that chart would argue that we need 
to aggressively look at how we control fire risk much better, 
which is why we are talking about active management, about fuel 
reduction, and about how do we best protect the forests for all 
of the users of those forests.
    Mr. Radanovich. Very good. Thank you very much.
    Mr. Walden. The Chair would now recognize the gentleman 
from Washington, Mr. Inslee. This will be the final round of 
questions.
    Mr. Inslee. Thank you, Mr. Chairman, for your courtesy. 
Thank you for staying to accommodate this. I really appreciate 
that.
    Mr. Radanovich brings up a really interesting question 
about fire loss. I would just sort of editorially note that 
eight out of the ten hottest years in recorded human history 
were in the last decade. We are experiencing this global 
warming trend, which I believe, and many scientists believe, 
has prospectively some impact on our forest fire danger. It is 
one of the reasons I hope we can join to do something about 
global warming at some point.
    I was asking you earlier about this trust issue with the 
agencies and their difficult decisions. One of the issues that 
has caused great concern in the Northwest is the 
Administration's decision not to defend the Roadless Area Rule 
that was adopted after the largest amount of public input in 
American history in any rule, 1-point-some-million comments, 
and 5 percent of which were in favor of a very strong roadless 
area bill.
    The Attorney General of the United States, Mr. Ashcroft, 
promised the U.S. Senate, during his confirmation hearings, 
that he would, indeed, defend that Roadless Area Rule if, and 
when, it was challenged in court. Then, in the Idaho 
litigation, he essentially took a dive and refused to defend 
that rule, and that is causing great concern out in the Pacific 
Northwest.
    I would like, if you can, to tell us who made that decision 
in the Administration not to defend the roadless area bill, 
contrary to the specific promise by Mr. Ashcroft, be it you, 
the President, Mr. Ashcroft, who made that decision?
    Mr. Rey. First of all, I don't think we agree that the rule 
was undefended. The Justice Department mounted an aggressive, 
albeit unsuccessful, defense at the District Court level in 
Idaho. The Justice Department is today defending the rule in 
pending legal action in North Dakota and in Wyoming in cases 
that have not been stayed as a consequence of the Idaho 
preliminary injunction.
    After losing the decision at the District Court level, the 
Department of Justice and the Department of Agriculture, which 
is the client agency in this case, had the review, as the 
Department of Justice and its client agency does in every 
instance when we lose a District Court decision, what the 
merits of trying to reverse that loss on appeal are. What goes 
into that evaluation is, is it likely that we are going to 
succeed at the Circuit Court level or are we likely to fail? Is 
it necessary to continue the defense to achieve the objectives 
that we set out when the Secretary and the Chief announced 
their support for protecting roadless areas?
    The conclusion of that review, we believed that, as the 
Department of Justice and the Department of Agriculture, 
believed that it was highly unlikely that we would prevail in 
the appeal. The Ninth Circuit has ruled in similar cases 
before, when the Government has failed to adequately comply 
with NEPA, indeed, the last time an Administration tried to do 
a national Roadless Rule was in the Carter Administration, and 
it was reversed by the Ninth Circuit for almost expressly the 
same reasons that Judge Lodge had so far reversed it.
    So I think we have defended that rule as aggressively as we 
could, given the legal infirmities that the rule, 
unfortunately, possesses.
    Mr. Inslee. Well, let me just say that I hope that we 
prosecute these cases against terrorists with a lot more vigor 
than you assert we defended this rule in the Idaho courts. It 
was laughable. And the American people deserve better when, in 
fact, there has been an affirmation that the rule is going to 
be defended by the Attorney General of the United States. And 
it is this type of conduct which causes you difficulty, in the 
performance your duties, to win the trust of the American 
people, and that is what I am talking about today.
    Now one of the things I ask you about trust and how to win 
it back from the American people, I was hoping that you would 
have talked about the Tongass area, specifically, and your work 
on the roadless are bill. I was hoping that because I have 
heard that the Administration intends to pursue a course that 
would allow subsidies of roads being built in roadless areas 
that have been inventoried in the Tongass and allow foreign 
sales, if there is no viable domestic market. If you can tell 
me that is not true, I would love to hear that, and I would 
love you to tell us what your plans are in the Tongass, please, 
in regard to the Roadless Rule.
    Mr. Rey. The Tongass is under its own separate litigation. 
At present, the judge has agreed not to enjoin those timber 
sales that are currently operating. Those are sales that would 
have operated, even under the Clinton Roadless Rule, because 
they were grandfathered by that rule. As a result of that 
litigation, the Forest Service is currently conducting a 
wilderness review, and it will go through a revision of its 
Forest Plan and complete that wilderness review, which will 
decide which of those roadless areas are going to remain 
roadless and which may be put back into multiple use.
    The vast majority of land holdings in the Tongass National 
Forest, 16,300,000 acres of the 17 million acres of the forest, 
are not used for timber production and are presently roadless.
    Mr. Inslee. Just briefly, if I may, could you address the 
foreign sales issue, Mr. Rey.
    Mr. Rey. I don't believe there area any foreign sales on 
the Tongass. There are some species that are not used by the 
domestic producers which remain on the Tongass, yellow cedar 
and, to a smaller extent, red cedar. Some of these logs are 
exported to the Pacific Northwest mills, as well as to some 
mills abroad.
    But they are not selling timber sales to foreign bidders. 
Those are all American logging and manufacturing companies that 
are bidding on the sales.
    Mr. Inslee. Thank you. Thank you for your courtesy.
    Mr. Walden. The gentleman's time is expired.
    I would conclude the hearing with my own 5 minutes, a 
couple more questions, and I want to give Chief Bosworth an 
opportunity to respond to my question about the Medford tanker 
base.
    As you know, the ``Quartz'' fire burned over 6,000 acres of 
Federal, State and private land in Oregon last summer. The fire 
initially had been forecast to spread to 28,000 acres, but 
because we were able to get in and do the initial attack 
because of the close proximity of the tanker base in Medford, 
the fire was contained to 6,000 acres, which saved the 
taxpayers and the Forest Service 28.8 million in fire 
suppression costs. In light of these savings and the fact that 
55.9 percent of the Quartz fire occurred in the Rogue River 
National Forest, does it not make sense for the few hundred 
thousand a year to keep that base open, to do that as opposed 
to run the risk of a fire getting away from us that could cost 
28 million?
    Mr. Rey. When we are determining where we want to keep air 
tanker bases, we look across the board and try to figure out 
exactly where the fire frequencies are, the length of time it 
takes to reload and to do the initial attack with air tankers, 
where the closest reload bases might be, and our folks go 
through a fairly heavy evaluation, also recognize that there 
are limited dollars to do the improvements at some bases that 
need to be done.
    I know that in this particular case there has been a lot of 
discussion with local folks, and there is a big concern from 
people in Medford about whether or not they will be adequately 
protected. I know also that the Regional Forester, Harv 
Forsgren, has worked with your staff and Heather's, and my 
understanding is they have come to some agreements that we 
would be able to--there are some dollars involved, but in the 
event that we are able to achieve those dollars, that we would 
keep it open.
    In the meantime we will have a reload facility there, and I 
believe that that reload facility will work very well.
    Mr. Walden. Thank you. Mr. Rey, you were out in John Day 
Oregon with Senator Smith at a timber meeting, and you have 
seen what is going on out there. You have talked to the folks 
that are in such desperate straits. One of the issues that we 
have run into is this Beschta Report, and as you know, Judge 
Haggerty ruled in favor of the plaintiffs in a suit against the 
Forest Service for its failure to cite the Beschta Report when 
preparing the Hash Rock salvage sale. Again, that is a few 
hundred acres out of how many thousands of acres that were 
burned that we are trying to get in there and get cleaned up.
    Can you talk to me about, are there other studies out there 
that can be referenced? Why wasn't Beschta referenced? What 
does it take--and this isn't necessarily a criticism--but what 
is it going to take to prepare a timber sale that can withstand 
a court decision? It seems to me there ought to be some 
template. Will your Charter Forest concept help us get to the 
goal of healthier forests, better-managed forests and product 
for our mills?
    Mr. Rey. Possibly, but I think we are going to have to 
continue to improve our ability to articulate our objectives 
and develop completed decisionmaking documents, because I don't 
think that the environmental litigants who are challenging this 
are going to go away. Before we came up here we took a tally of 
how many legal actions the Forest Service is currently involved 
in, and the number is over 5,000. So we are looking at the 
Beschta Report and potentially may augment that report and make 
sure that our line managers have a complete understanding of 
all of the things that they have to evaluate and disclose in 
the decisions they make.
    Mr. Walden. I had a Regional Forester, a few years ago, 
tell me in my office that in order to replace the steps on a 
lookout tower, which of course a fire lookout on top of a 
mountain, they had to do an aquatic study. Now, I don't know 
about many walking fish or climbing fish, but that seems a bit 
absurd to simply replace the steps. And she went on to say that 
there are some 99 laws, rules, whatever they have to try and 
keep track of when they do anything. And the Forest Service 
employees, a number of us have commented what dedicated people 
you have, and again, we all have people in this Congress and 
any occupation that we might disagree with their tactics or 
their ethics, but people I have met with in almost every 
instance have been just stellar. But I also have a sense, as I 
have gone around, that more and more people in the service are 
feeling a bit demoralized that no matter what they try to do, 
somebody sues, and you just never get it done. Is there a way 
that we could go back and sort of recodify, without reducing 
necessarily, the environmental standards, but just to get to a 
system where we can move things though.
    You know, in the Malheur, I know it took 3 years, 3 years, 
just to harvest trees that had been burned in a catastrophic 
fire. By the time they got in, because they were pine, they 
were all burned. The value for the taxpayers had gone from 30 
million to a million. If we were on a real board of directors 
here, we ought to be sued by our taxpayers for fiduciary 
irresponsibility.
    Mr. Rey. I think we are being sued by the--
    [Laughter.]
    Mr. Walden. All right. We are back in court. Is there any 
way to break through that?
    Mr. Rey. I think that first next step is the report that 
the Forest Service is preparing for the Chief, and that will be 
the subject of the subcommittee hearing on the 16th, I believe, 
and what we hope that report provides you is our best diagnosis 
of what the problems are in our rules and regulations in some 
of the statutory requirements. And with a good and fulsome 
discussion of that, I believe we can then move forward to work 
on some solutions. We already have some things, some 
administrative things in progress, but I think that is the next 
first big step.
    Mr. Walden. Because I have seen--I have been out after some 
of these fires in the forest with some of your people, Leslie 
Weldon and others out in the Deschutes, and they took me 
through where we had been in and actually done some thinning. I 
guess that is a politically correct term. I don't know any more 
what to say, but that is what happened. And where they hadn't. 
And it was a clear line right down the forest. And on the side 
that had been treated, even some of the underbrush was 
surviving. The lodgepole pine, some of it was going to die, but 
most of it was going to survive, and the ponderosa was going to 
make it just fine. And literally you could walk to the other 
side. The soils were scorched, the underbrush was gone, the 
habitat destroyed. The lodgepole mostly all would die, and a 
lot of the ponderosa would die.
    And I don't think people all over this country of ours 
understand what has happened in the west, that we have 
suppressed fire for a hundred years. We have done heroic 
efforts to stop forest fires, Smokey Bear--I will get it right, 
not Smokey the Bear--Smokey Bear, yeah we have all said stop 
forest fires. But then we have also stopped any management of 
those forests in most cases, and so it is just like a garden 
where you never weed. And so when the fire does hit in these 
hot, hot summers, it is catastrophic, and it troubles me 
because that is not good for the environment.
    I think it was in either this hearing or one the Ag. 
Committee a year or so ago, had photos of a stream where a fire 
had raged through, a catastrophic portion, and it looked like 
it was snow, and this was taken much later after the fire. And 
yet it was that dust that you sink down to your knees in, and 
that is the habitat left for the fish out from these stream 
banks. And I don't want to see that happen.
    I realize we are never going to go back to the cuts of the 
'70's or '60's or whatever. That is not even on the table. But 
somewhere we have got to find a middle ground, as my colleague, 
Mr. DeFazio was talking about, or you are going to have 
enormous blowdowns and destruction and disease. And I know the 
Chief has spoken quite eloquently about the gridlock that you 
are running into. And, Chief, do you want to weigh in on this, 
or Madam Secretary, whatever you want to do?
    Mr. Bosworth. Well, I can't ever resist the opportunity to 
comment about the problems that we have in terms of our 
process. And it is very demoralizing for our folks in the field 
to work hard to do good things in the ground, and it is not--
often people are believing that it keeps us from harvesting 
timber but that is all. No, it keeps us from improving fish 
passage, from replacing culverts, from doing good travel 
planning so that we can designate off-highway vehicle trails, 
so that we can get the off-highway vehicles off the cross-
country and on to designated trails. Every--
    Mr. Walden. So when you go to replace the culverts to make 
them more fish friendly, you are getting--
    Mr. Bosworth. We still have to go through many of the same 
processes. We still have to go through consultation processes. 
And it is not that that stops it necessarily, it is just that 
such a large percentage of the dollars that we get go to doing 
all the planning and the analysis, and then we get less 
culverts replaced.
    And so it is my objective, is to review these processes and 
review the way that we are managing this internally, because we 
have got to take some of the heat on this and fix some of our 
management processes, but look at all of the other processes 
that we are dealing with, and make a process that works for the 
public and where we can make good decisions on the ground in a 
timely way so that we can be an organization that people point 
to and say that is an organization that is good government.
    Mr. Walden. Well, I think that is a very forward-looking 
way to approach it, because it is not to cutoff public 
discussion or to necessarily even tilt the scale one side or 
the other, I mean I have got my biases. People know that. That 
is fine. But it just seems like we get caught in gridlock.
    Madam Secretary?
    Secretary Veneman. Well, I think you have made a very 
strong case for why it is so important to actively manage our 
forests. Whether it is protecting against more catastrophic 
fires. I mean the active management of a forest, it is proven, 
is truly beneficial from an environmental standpoint. It helps 
protect against the catastrophic fire. It helps protect 
habitat. It helps to protect trees. And I think we have seen 
numerous examples of this, and it is truly our desire to find a 
way so that we aren't so bound by this process gridlock that we 
can't do the job that needs to be done for all of the public to 
better preserve the forest, because that is really what we are 
talking about.
    And I think oftentimes we think we aren't really 
considering the fact--as has been brought by people on both 
sides of the aisle today--that we need to actively manage to 
protect communities, to protect the forest/urban interface, to 
protect the forests themselves, because the losses will be so 
much greater, and to, in the process of doing that, involve 
local communities and find ways to allow these decisions to be 
made in a timely manner so that we can do the best thing in the 
most expeditious way and in the most protective way for all 
that are concerned.
    Mr. Walden. There are some great organizations out in my 
district and in my State, where they have got the tribes, the 
environmental community, industry, local elected officials, I 
think of Wallowa resources up in the Wallowa National Forest, 
Wallowa-Whitman, I think the Deschutes Resource Conservancy in 
Central Oregon, the Applegate down in Souther, there are these 
groups that have come together on the ground to say let's 
figure this out and make it work. And that is why I am hoping, 
as you explore this idea of other models to go to, to actually 
improve the environment, I mean we Oregonians are pretty proud 
of our environment, and while we may have our differences in 
how we work that out, at the end of the day we want clean 
water, we want fish in our streams, but we also recognize a 
need for agriculture and timber.
    Nobody else is here to complain about me going over 5 
minutes, but I just feel so passionately about we can have good 
clean water, we can have restored fish runs. We can screen. And 
in the Klamath Basin, you saw what is down there. We have known 
about the need to screen those canals for a decade. It just 
does not happen. It is expensive. We get water. People ignore 
it. Now, we have got funds in the farm bill. We will have funds 
in other ways. And what this Administration is driving--I know 
firsthand, having flown with the President, that he is 
tenacious, and he wants this solved, and he wants water for the 
farmers. But he also understands the Endangered Species Act and 
understands the needs to have health habitat too.
    That is the interesting thing and the incredibly vexing 
challenge in the Klamath Basin is if we satisfy the ESA and if 
we restore healthy runs, we will have water for the farmers, 
and that is why I was so pleased that Chairman Combest included 
our study of fish passage at Chilaquan Dam. 95 percent of the 
habitat of the sucker is blocked by that irrigation dam. The 
irrigation district and the Klamath tribes worked with me on 
that legislation. And that is going to move now. In a year we 
will know whether you take the dam out and pump water or can 
you do better fish passage? You know, it is one less thing that 
blocks the survival of the sucker.
    So anyway, I know you have a very busy schedule, and I will 
draw this to a close. And again, thank you for your 
initiatives.
    The record will be open for 10 days for members to submit 
questions to the Secretary.
    And again, we appreciate the tough challenges you face, and 
the friendly attitude and tenaciousness that you face it with, 
and thank you for being here and thank you for the work you are 
doing for our country.
    Secretary Veneman. Thank you very much.
    Mr. Walden. The hearing is closed.
    [Whereupon, at 12:32 p.m., the Committee was adjourned.]

                                   - 

</pre></body></html>
